<html>
<title> - A SAFE TRACK?: OVERSIGHT OF WMATA'S SAFETY AND MAINTENANCE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]







       A SAFE TRACK?: OVERSIGHT OF WMATA'S SAFETY AND MAINTENANCE

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         GOVERNMENT OPERATIONS

                                AND THE

                            SUBCOMMITTEE ON
                    TRANSPORTATION AND PUBLIC ASSETS

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            DECEMBER 2, 2016

                               __________

                           Serial No. 114-173

                               __________

Printed for the use of the Committee on Oversight and Government Reform




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






         Available via the World Wide Web: http://www.fdsys.gov
                      http://www.house.gov/reform

                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

26-176 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
    


























              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                     JASON CHAFFETZ, Utah, Chairman
JOHN L. MICA, Florida                ELIJAH E. CUMMINGS, Maryland, 
MICHAEL R. TURNER, Ohio                  Ranking Minority Member
JOHN J. DUNCAN, JR., Tennessee       CAROLYN B. MALONEY, New York
JIM JORDAN, Ohio                     ELEANOR HOLMES NORTON, District of 
TIM WALBERG, Michigan                    Columbia
JUSTIN AMASH, Michigan               WM. LACY CLAY, Missouri
PAUL A. GOSAR, Arizona               STEPHEN F. LYNCH, Massachusetts
SCOTT DesJARLAIS, Tennessee          JIM COOPER, Tennessee
TREY GOWDY, South Carolina           GERALD E. CONNOLLY, Virginia
BLAKE FARENTHOLD, Texas              TAMMY DUCKWORTH, Illinois
CYNTHIA M. LUMMIS, Wyoming           ROBIN L. KELLY, Illinois
THOMAS MASSIE, Kentucky              BRENDA L. LAWRENCE, Michigan
MARK MEADOWS, North Carolina         TED LIEU, California
RON DeSANTIS, Florida                BONNIE WATSON COLEMAN, New Jersey
MICK, MULVANEY, South Carolina       STACEY E. PLASKETT, Virgin Islands
KEN BUCK, Colorado                   MARK DeSAULNIER, California
MARK WALKER, North Carolina          BRENDAN F. BOYLE, Pennsylvania
ROD BLUM, Massachusetts              PETER WELCH, Vermont
JODY B. HICE, Georgia                MICHELLE LUJAN GRISHAM, New Mexico
STEVE RUSSELL, Oklahoma
EARL L. ``BUDDY'' CARTER, Georgia
GLENN GROTHMAN, Wisconsin
WILL HURD, Texas
GARY J. PALMER, Alabama

                   Jennifer Hemingway, Staff Director
                    Andrew Dockham, General Counsel
                       Patrick Hartobey, Counsel
                    Sharon Casey, Deputy Chief Clerk
                 David Rapallo, Minority Staff Director
                 Subcommittee on Government Operations

                 MARK MEADOWS, North Carolina, Chairman
JIM JORDAN, Ohio                     GERALD E. CONNOLLY, Virginia, 
TIM WALBERG, Michigan, Vice Chair        Ranking Minority Member
TREY GOWDY, South Carolina           CAROLYN B. MALONEY, New York
THOMAS MASSIE, Kentucky              ELEANOR HOLMES NORTON, District of 
MICK MULVANEY, South Carolina            Columbia
KEN BUCK, Colorado                   WM. LACY CLAY, Missouri
EARL L. ``BUDDY'' CARTER, Georgia    STACEY E. PLASKETT, Virgin Islands
GLENN GROTHMAN, Wisconsin            STEPHEN F. LYNCH, Massachusetts

             Subcommittee on Transportation & Public Assets

                     JOHN L. MICA Florida, Chairman
MICHAEL R. TURNER, Ohio              TAMMY DUCKWORTH, Illinois, Ranking 
JOHN J. DUNCAN, JR. Tennessee            Member
JUSTIN AMASH, Michigan               BONNIE WATSON COLEMAN, New Jersey
THOMAS MASSIE, Kentucky              MARK DESAULNIER, California
GLENN GROTHMAN, Wisconsin, Vice      BRENDAN F. BOYLE, Pennsylvania
    Chair
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
    
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on December 2, 2016.................................     1

                               WITNESSES

Mr. Christopher A. Hart, Chairman, National Transportation Safety 
  Board
    Oral Statement...............................................    10
    Written Statement............................................    13
Mr. Matthew Welbes, Executive Director, Federal Transit 
  Administration
    Oral Statement...............................................    24
    Written Statement............................................    26
Mr. Paul Wiedefeld, General Manager, Washington Metropolitan Area 
  Transit Authority
Mr. Jack Evans, Chairman of the Board, Washington Metropolitan 
  Area Transit Authority
    Oral Statement...............................................    33
    Written Statement............................................    36
Mr. Raymond Jackson, Second Vice President, Amalgamated Transit 
  Union, Local 689
    Oral Statement...............................................    39
    Written Statement............................................    41

                                APPENDIX

Congressman Steny H. Hoyer Statement.............................    74
Senator Chris Van Hollen Statement...............................    75
Response from Mr. Wiedefeld-WMATA to Questions for the Record....    77
Response from Mr. Jeter-Amalgamated Transit Union Local 689 to 
  Questions for the Record.......................................    95

 
       A SAFE TRACK?: OVERSIGHT OF WMATA'S SAFETY AND MAINTENANCE

                              ----------                              


                        Friday, December 2, 2016

                  House of Representatives,
 Subcommittee on Government Operations, Joint with 
  Subcommittee on Transportation and Public Assets,
              Committee on Oversight and Government Reform,
                                                   Washington, D.C.
    The subcommittee met, pursuant to call, at 9:00 a.m., in 
Room 2154, Rayburn House Office Building, Hon. John L. Mica 
[chairman of the Subcommittee on Transportation and Public 
Assets] presiding.
    Present: Representatives Mica, Meadows, Grothman, Jordan, 
Buck, Carter, Chaffetz, Connolly, Watson Coleman, Maloney, and 
DeSaulnier.
    Also present: Representatives Comstock, Delaney, and Beyer.
    Mr. Mica. Good morning. I'd like to call this joint hearing 
of the Subcommittees on Transportation and Public Assets and 
Government Operations to order. Two of our subcommittees of the 
Committee on Oversight and Government Reform are holding a 
joint hearing today. And the title of this hearing is ``A 
SafeTrack''--that deals, of course, with Washington Metro--an 
``Oversight of WMATA Safety and Maintenance Issues.''
    I'm pleased to convene the hearing this morning. And the 
order of business is we'll start with opening statements from 
members, and then we'll go to our panel of witnesses. And after 
we've heard from all of them, we'll go into questioning.
    With that, we'll begin the hearing. And let me recognize 
first Chairman Chaffetz, the chairman of the full committee.
    Mr. Chaffetz, you're recognized.
    Mr. Chaffetz. I thank you, Chairman. And I want to just 
take a point of personal privilege here. This is the last 
hearing that Mr. Mica will chair in the United States Congress. 
Mr. Mica has served with great distinction for 24 years in this 
body. He has served as the chairman of the Transportation 
Infrastructure Committee. He's poured his heart and soul into 
this Nation and to this body over more than two decades. And so 
we want to say thank you, we want to say thank you, and we want 
to say thank you for the tremendous service that you have 
dedicated over the years. And you've been a great inspiration 
to a lot of us. And it's an honor and a privilege to serve with 
you. We wish you and your wife nothing but the best. But it is 
an honor to be with you this last hearing that you're going to 
chair. And we wish you nothing but the best. But God bless you. 
Thank you.
    Mr. Mica. Thank you.
    Mr. Chaffetz. Thank you very much. Yield back.
    Mr. Mica. Thank you.
    Mr. Connolly.
    Mr. Connolly. Speaking for the Democratic side of the 
aisle, I also want to wish you Godspeed and thank you for your 
service. We have a reputation for not always being able to 
collaborate on a bipartisan basis up here, but when you and I 
served together, you as chairman of the subcommittee and me as 
the ranking member, actually we made a lot of common music. And 
I think you did an awful lot of good both here and, of course, 
on the Transportation Committee as well. I'm going to miss you 
personally, John. And on behalf of the Democratic side of the 
aisle, thank you for your service to your country.
    Mr. Mica. Well, thank you, Gerry. And thank you, Chairman 
Chaffetz. All the members of the committee, it's been a 
pleasure, Mr. Meadows, Mr. Jordan, and others that I've had the 
opportunity to serve with. A few minutes ago, we got to thank 
some of the staff for their work this year. And you can't 
operate an important committee like this without having a 
tremendous staff, which on both sides of the aisle we've been 
blessed.
    So while there may be some cheering from the bureaucrats 
that Mica's finally gone, I can assure you I still will be very 
actively engaged and involved. But there's no better committee 
to serve on. Now, I have chaired Transportation, but this 
committee, dating back to 1808, performs such an important 
service for the American people. It really does. It's not an 
authorizer, it's not an appropriator, but it tries to make 
things right, get things right, and hold people accountable. 
And that's so important in our structure of government.
    So it's been my pleasure to serve. And I'm not finished 
yet, either with this hearing or in service to the people of 
this great country. So I thank you for those accolades. I wish 
I'd had more of them during my service. But--and my weird sense 
of humor or sick sense of humor, the humor my wife says most 
people don't understand that I have, is an inherited thing. So 
I try to--you try to keep a light side of it along the way, but 
we do have an important mission.
    With that being said, we need to get to our work here. And 
this is important work. And without objection, the chair is 
authorized to declare a recess at any time. Kind of fitting in 
the last hearing here, it's on transportation. And I was 
honored to have this subcommittee which is responsible for 
transportation oversight for the House of Representatives under 
my watch for the past term.
    And, unfortunately, today we're back to where we've been 
before, and we have been some four times. This is our fourth 
hearing on oversight of, unfortunately, some of the problems 
with the D.C. Metro in this Congress. And those hearings go 
back to February of 2015. And then we did another one in July 
of 2015, and April of 2016. And, again, this is our fourth.
    If you woke up this morning in metropolitan area of the 
District of Columbia, Northern Virginia, and Maryland, first 
thing I was greeted with is my colleague Gerry Connolly on the 
radio blasting what we all found out on the report that was 
released yesterday, some of the highlights of the NTSB report--
we'll hear more about that--on the Falls Church derailment. And 
what is particularly troubling in that report is that, 
unfortunately, some of the information about the deterioration 
of the rail ties and lines in the area was reported and known 
for more than a year. And there are questions about possible 
falsification of reports, intimidation of employees. Some folks 
were trying to do the right thing and were--the safety issues 
were ignored. And that's a very, very serious matter. So we'll 
talk more about that.
    Again, it's the latest in a whole series of safety issues 
that we have addressed in these past hearings. And, again, the 
latest report, not from us but from NTSB highlights that almost 
17,000 open track defects are still waiting to be repaired. And 
some of these dating back to 2008.
    In a briefing in its--on its investigation, the NTSB 
informed our committee that the state of Metro's rails is 
deplorable. Metro's current state of disrepair is--and that's 
their term, not ours, but we can join them in that evaluation. 
Metro's current state of disrepair is the result of years and 
years of deferring maintenance needs, negligence in some cases. 
Unfortunately, we've seen cases of gross mismanagement. And 
then also most troubling for the taxpayers, is runaway costs.
    Mr. Wiedefeld's first--safety first message has been 
encouraging. And we know he's been on the job a short period of 
time, but Metro has to continue to improve its performance.
    We are now halfway through the SafeTrack rebuilding 
schedule, but the system continues to be plagued by safety 
incidents on almost a weekly basis. On July 5, we had a second 
signal violation and a wreck. On July 29, a train with 63 
passengers on board derailed. On September 13, a crowded train 
stalled at Farragut North for nearly 40 minutes with almost no 
announcements from the operators to the riders. On October 20, 
two FTA safety inspectors were almost struck by a train that 
violated speed restrictions. And we continue to see arcing 
incidents--and I want to hear more about the status of where we 
are there--that have caused smoke, fire, and, unfortunately, at 
one of the first junctures we had a loss of life.
    It's been, unfortunately, now commonplace that things are 
so bad they've even created a Web site--and that Web site is 
metroonfire.com--to find out if Metro is, in fact, suffering 
from smoke or fire incidents at any particular time.
    These incidents and service disruptions continue to keep 
riders and the entire system in constant turmoil. Early in 
January 2015, the previous chairman of the Metro's board 
praised the outgoing manager for rebuilding the safety culture 
from top to bottom after years of rebuilding under the $5 
billion Metro Forward capital plan, that was his pronouncement. 
Four days later, unfortunately, the L'Enfant Plaza incident 
happened, which we had a loss of life and injured 91 people.
    We need to know both today here from these witnesses and 
also in the future, we've got to be certain that things are 
heading in a different direction with this important system.
    When you see headlines that show the staggering safety 
lapses on a regular basis--and I said to the staff: Just pull 
me some of the clips about some of these issues, the most 
recent. And then I said: Are there a lot of them? And I said: 
Well, tag them. You can see just page after page. Now, these 
are just Washington Post articles. I don't know why you guys 
didn't get the Times too, but this is just the Washington Post.
    Do you get the Times, Gerry?
    Mr. Connolly. I don't.
    Mr. Mica. Okay. I didn't think so.
    But this is, again, an incredible array of headlines and 
articles that cite that the system is broken. We've had reports 
even that new, brand-new, rail cars are breaking down. And I 
heard one report that says this is 5 to 10,000 miles is a 
breakdown record of the new cars, an average of about 7,000 
miles on a car, as opposed to 20,000 for the normal period in 
which a vehicle should not experience those problems. So we do 
have multiple problems.
    I was stopped by an individual when I was getting a subway 
the other day, and he had some photos. And, actually, there's a 
photo and a video. But maybe they could put up the photo that 
he took of the workers.
    Can we get that put up?
    Okay. Well, you can count about 15 workers and about--well, 
15 individuals employed by WMATA and about three people working 
in this scene. Actually, he also supplied me, we don't have it 
up there, a video showing a sort of time lapse that people are 
there but not working. And that raises a great question when 
the public is seeing this kind of operation with lots of people 
standing around and we've got some serious issues with even the 
folks that are there.
    And I thank the current director for going in, and he has 
made good in some of his challenges. In fact, I think he's 
eliminated 20 senior manager positions and reduced some of the 
headcount by 1,000. But you could see there's still a long way 
to go with some of the people who are not performing. And I'm 
going to ask some questions too about contracting some of this 
work based on performance and payment. I understand the--also 
that the union contract is not up for some of these workers 
still in limbo. We'll hear on that. But there's got to be a 
better way to get better results and performance from those on 
the job.
    I do want to thank, again, the new director for the reforms 
that he's initiated. Maybe we could re-term this hearing, Let's 
make Washington Metro great again. And that's something that we 
have a challenge and opportunity to do. We put an incredible 
amount of money into the system.
    I googled last night the history of the system. And it's 
been around for 40 years. Started with 4.7 miles. And it really 
is one of the--it was created as one of the finest rapid 
transit systems in the world. And we should be very proud of 
this system. It serves the Nation's capital and this region. 
And it's a shame that we find ourself in this particular 
situation.
    So I continue to work in an unofficial capacity to make 
certain that happens. And hopefully this hearing will help us 
rebuild Metro and restore public confidence in an important 
transportation system, the second largest carrier of commuters 
in the Nation, and important in the everyday life of people in 
this region and to the United States of America.
    So I look forward to working with you all. And I can turn 
to Mr. Connolly. And I'm sure Mr. Connolly will be very warm 
and fuzzy this morning.
    You're recognized.
    Mr. Connolly. Thank you, Mr. Chairman. Before I begin, I'd 
ask unanimous consent that my colleagues, Mr. Beyer, Mr. 
Delaney, and Mrs. Comstock, be allowed to participate in this 
hearing.
    Mr. Mica. Reserving the right to object.
    Just kidding, Gerry. Just kidding.
    Without objection.
    Mr. Connolly. And if the clock can go back to 5, please, 
for me.
    That was a UC request. Thank you.
    I appreciate this opportunity once again to discuss safety, 
service, and budget challenges faced by the Nation's transit 
system, WMATA. Each time this committee revisits this topic and 
exercises its Federal oversight prerogative with regard to 
Metro, we're reminded of the close relationship between the 
functionality of the Federal Government itself and the health 
of the Nation's capital transit system. It should come as no 
surprise that a congressional committee tasked with ensuring 
the efficiency of the Federal Government and the safety of its 
workforce has a vested interest in the success of that transit 
system that delivers more than one-third of the area's Federal 
workforce every day.
    In March, when Metro announced that it would shut down for 
24 hours to conduct emergency inspections, the first question 
on everyone's mind was how would the Federal Government's 
Office of Personnel Management accommodate that closure. Unlike 
any other transit system in the United States, this one is so 
dependent on the Federal workforce for its customer base. The 
Federal Government is the primary stakeholder in this transit 
system. And I look forward to working with my colleagues to 
ensure that Federal support for Metro is commensurate to its 
fundamental reliance on the system. As Federal stakeholders, I 
think our organizing principle should be the failure of Metro 
cannot be an option.
    When this committee held a hearing on Metro in April, the 
system was in crisis. All lights were blinking red. The hearing 
and witness testimony enumerated the system's mounting crises 
in leadership, safety, customer confidence, and finance. It was 
clear that the situation required bold and immediate action and 
that the status quo for Metro was derailed to perdition.
    The purpose of the hearing today is to examine whether 
Metro has stepped back from the precipice and whether and how 
the system can set a trajectory for safe, reliable, and 
sustainable operations.
    Unfortunately, the leadership crisis at Metro has evolved 
rather than diminished. After going 10 months without a general 
manager, the Metro finally has somebody at the helm, and 
general manager Paul Wiedefeld has demonstrated that he 
understands that the problems plaguing Metro are systemic. One 
does not have to agree with every major decision he's made to 
appreciate the fact that thank God he's willing to make them.
    He came to the position with desperately needed relevant 
experience, even though the board fought about what really was 
required and preferred a green eyeshade accountant to somebody 
with experience in operations. We were fortunate we didn't go 
down that road.
    The enduring leadership crisis at Metro resides in the 
WMATA board of directors. Some board members seem bent on 
proving that the governing body is wholly incapable of 
resuscitating, much less managing, Metro. Threats to scrap a 
major expansion of Metro to Dulles International Airport pit 
jurisdiction against jurisdiction and fractured the true 
regionalism necessary for Metro's success.
    And I assure you, Mr. Evans, it will have repercussions up 
here among your allies and your partners. It's destructive and 
not welcome.
    I've spent the last 21 years of my life working on Metro-
related issues, first as a member of the Fairfax County Board 
of Supervisors and then as chairman of Fairfax County for 5 
years. I made appointments to the Metro board. I rezoned 
property around Metro stations to maximize their potential. I 
approved the local operating subsidy every year without 
question and helped create the local tax districts to fund 
construction of the new Silver Line with the full approval of 
Metro and Metro's board.
    In Congress, I've worked diligently with my colleagues to 
save the $150 million annual Federal commitment for safety 
improvements, which is matched by the Virginia localities and 
Maryland and D.C., and helped secure financing for the Silver 
Line working with then-Secretary Ray LaHood to both reduce 
costs and to secure funding for that Silver Line. So it's 
personally painful to witness members of the WMATA board so 
mismanage an institution this region has invested in and fall 
back on the very parochialism some condemned.
    From a congressional perspective, threats to cancel major 
Federal investments, Federal investments, rampant parochialism, 
and political theater on that board destabilize efforts to 
secure and increase an appropriate level of Federal support up 
here. It's not like we have that many friends. And to fracture 
the support we've got jeopardizes everything you need in 
Capitol Hill.
    General manager Wiedefeld deserves credit for taking the 
initiative within 6 months of becoming general manager to begin 
a sweeping program that will seek to carry out 3 years' worth 
of maintenance in 1 year. Leading up to the announcement of 
SafeTrack in May, fires, major track defects, and arcing 
incidents, including one that claimed the life of Carol Glover, 
had exposed dire maintenance situation in Metro.
    While SafeTrack gives us something tangible to point to 
when assessing efforts to improve Metro safety, the safety 
problems at Metro go far beyond the replacement of high voltage 
cables and defective third rail insulators. I welcome the 
SafeTrack metrics from Metro that include the replacement of 
26,000 cross ties and 10,000 fasteners since the beginning of 
the maintenance blitz.
    However, this week, the National Transportation Safety 
Board released a report on the East Falls Church derailment in 
July. And it found, once again, that Metro track inspectors 
were not conducting inspections in accordance with written 
policy and responding to defects in realtime. Indeed, the NTSB 
found clear evidence that Metro safety inspectors deliberately 
falsified reports, endangering public safety once again.
    In the report, NTSB reiterated its recommendation to the 
Department of Transportation, the Federal Department of 
Transportation, that FRA, not FTA, ought to have safety 
responsibility and oversight for Metro. The report stated, and 
I quote, ``The FTA oversight model lacks minimum safety 
standards, expertise, and the resources to provide assurance 
that corrective action plans are completed,'' unquote. I've 
repeatedly shared my concern that the FTA does not have the 
tools necessary to provide robust oversight of Metro. And I 
think the derailment in East Falls Church is a case in point.
    The customer confidence picture continues to worsen. 
Ridership is already down 13 percent in this fiscal year. 
SafeTrack has been disruptive to commuters, and pending 
proposals for increased fares and diminished service could only 
hasten the vicious downward spiral. I might add, loose talk 
about closing large sections of the system continue to 
contribute to the loss of consumer confidence and ridership 
confidence. Will it be there in the future? Apparently not.
    As the general manager noted in his fiscal year 2018 
proposed operating budget, the primary cause of Metro's current 
budget challenge, a $290 million budget gap, is declining rail 
ridership, which has been on this downward trajectory since 
2009. Fortunately, there's an effort from management to assert 
the primacy of safety in Metro culture and improve reliability 
that could go a long way to restoring faith in the system.
    Going forward, staff reduction, service cuts, and fare 
increases are not going to bring about long-term stability. 
Metro is the only major transit system without a dedicated 
source of funding, and the system relies upon a patchwork of 
subsidies from local jurisdictions. Metro receives 47 percent 
of it's operating budget from local and State subsidies, but 
not a Federal subsidy, and zero percent from a dedicated source 
of revenue. Zero percent.
    In my hometown of Boston, our transit system sees those 
figures in reverse, with zero percent coming from local 
subsidies and 64 percent coming from a dedicated source of 
revenue. In my role as chairman of Fairfax in 2004, I helped 
launch the Blue Ribbon Panel on Metro that ultimately 
recommended a regional sales tax and called on the Federal 
Government to participate significantly in addressing the 
projected shortfall for capital maintenance and system 
enhancement.
    There's clearly an appetite for Metro to meet certain 
safety and reliability metrics before new funding commitments 
are made. However, lamentations about performance will not 
solve Metro's problems if we continue to ignore the 
dysfunctionality of the Metro board, the culture of 
indifference that pervades the workforce, and the absence of 
stable revenue any transit system needs to operate.
    I look forward to hearing from the witnesses today. And 
thank you for your indulgence, Mr. Chairman.
    Mr. Mica. Thank you, Mr. Connolly.
    Mr. Meadows.
    Mr. Meadows. Thank you, Chairman Mica. And before I begin, 
Mr. Mica, I want to just recognize not only the outstanding 
service that you have provided the great folks of Florida and 
the United States as a whole, but a personal friendship to me. 
As a new guy coming in that had no idea what went on behind the 
scenes or what went on out there, you took a young guy from 
North Carolina and actually invested in me in a way that, quite 
frankly, I'll never forget. You and Pat are dear friends.
    It's been a difficult year. I want to let you know that I 
sincerely appreciate your friendship, your leadership, your 
investment, your love, and your compassion for the people that 
you serve. If they knew what I knew, that every day that you 
were worried about serving them more than serving yourself, I 
think that they would rise up with a statue. And I just want to 
say that I have a personal statue in my heart of a man that I 
appreciate so much. And you know in my district we're the only 
district in the United States with a place called Micaville. 
And so every time I go by, I will remember it. So let me----
    Mr. Mica. Thank you.
    Mr. Meadows. Let me go and turn to the business of today. 
And let's get serious. I could tell you when I have my good 
friend Gerry Connolly as upset as he is today, I take notice. 
We talked about this yesterday. We've talked about it multiple 
times. But what we have here is a systemic failure to address 
real problems that actually not only affect ridership and the 
financial stability, but the safety aspect of our inaction is 
causing great peril, loss of life. And, quite frankly, it can't 
be tolerated anymore. This is our fourth hearing. I'm tired of 
hearings. I'm tired of excuses. I'm tired of us going back and 
forth to look at these issues and say: Well, if you just give 
us a little bit more time, we'll get it fixed. WMATA is not a 
fine wine. It does not improve with time. What we must do is we 
must act today.
    The gentlewoman from Virginia, Mrs. Comstock, she has 
called me a number of times saying that we have got to address 
this particular issue over and over and over again. And yet 
here we are with SafeTrack and learning that indeed as we start 
to embark on it----
    And, Mr. Wiedefeld, I want to say thank you. You're making 
tough choices. You know, I can tell you it is not good for your 
career. Because every time that you make a tough choice, you 
have a critic that is out there that is wanting to suggest that 
you shouldn't be making that choice. But, quite frankly, we 
needed your kind of leadership years ago. This is a systemic 
problem that has to be addressed and it has to be addressed 
now.
    Now, it will require difficult decisions. And as my good 
friend Mr. Connolly just pointed out, some of the decisions 
that are being contemplated by the board, Mr. Evans, are 
troubling. You and I know that we've had some personal 
meetings. And I'm willing to invest the political capital in a 
way that does not play well back in North Carolina. But I'm 
willing to do that to fix this system once and for all. But 
what I'm not willing to do is to ignore what has become a 
reoccurring theme.
    Every time we get a new report, every time that we start to 
see something, we start to find out things that we should have 
known months and years ago. You know, to hear the report of 
falsified records is just mind blowing. It's just--you know, 
when you know that we're going to have this kind of detail to 
look at it, it's mind blowing. And the death and injury of 
individuals fall at the responsibility of some of those very 
people who look the other way when we have issues that we have 
to address. And so we're going to fix this. We're going to fix 
this right away. And what we are going to make sure of, as we 
look at the track record, is that we make hard decisions.
    And so, Mr. Jackson, I'm looking forward to hearing from 
you today. What are the hard decisions that you're willing to 
make as well? Because what we have here is is we've got 
everybody pointing fingers at everybody else. They're saying: 
Well, it was not my job. Well, it's not my responsibility. Or 
if we just had a little bit more money, we could fix it. Let me 
just tell you. We do have a money problem, but this is not--the 
genesis of this problem is not money. The genesis of this 
problem is a culture that we have allowed to pervade and exist 
for a long time.
    WMATA has become the butt of jokes. But let me tell you, 
it's not a joking matter. When you have people stuck on a track 
and they can't get ahold of an operator for 30 minutes, and 
then you start to unload them on to and get off on a track 
where you have an active possibility for electrocution, I mean, 
that's a real problem.
    And, Mr. Wiedefeld, you and I have talked on a couple of 
occasions, and some of the other safety concerns that are out 
there, we need a little bit more transparency so I don't get 
surprised by reading about something in the Washington Post. 
And by doing that I understand that you're trying to evaluate. 
But the other part of that is from an oversight standpoint, if 
we're going to make investments for Federal dollars, we have 
got to make sure that there is a good plan in place to address 
these.
    And so today, I'm looking forward to hearing from each one 
of you on how we can address that. Chairman Hart, you're here 
back to hopefully give us some marching orders. But it's not 
good enough if it's in a report and it doesn't get acted upon. 
It's not good enough that we fail to go and do what is 
necessary to do this.
    So as we start to look at this, Mr. Chairman, I appreciate 
your leadership on this area. What you are going to find are 
two bulldogs in a bipartisan way with Mr. Connolly and I. We're 
not going to let this go. And it's not because I ride it. It's 
just the safety and health and welfare of the people of this 
greater Washington, D.C. metro area that is at stake. We've got 
to fix it.
    And with that, Mr. Chairman, I'll yield back.
    Mr. Mica. Well, thank you.
    And I'll hold the record open for 5 legislative days for 
any member who'd like to submit a written statement. And 
recognize Mr. Connolly for a unanimous consent request.
    Mr. Connolly. Thank you, Mr. Chairman. I ask unanimous 
consent that the written statements from Democratic Whip Steny 
Hoyer and Senator-elect Chris Van Hollen be entered into the 
record.
    Mr. Mica. Without objection, so ordered.
    Mr. Mica. We'll now recognize our panel of witnesses. And 
I'm pleased to welcome to--this morning the Honorable Chris--
Christopher Hart, chairman of the NTSB; Mr. Matthew Welbes, 
executive director of the Federal Transit Administration; Mr. 
Paul Wiedefeld, who is the general manager of the Washington 
Metropolitan Area Transit Authority; Mr. Jack Evans, chairman 
of the Washington Metropolitan Transit Authority; and Mr. 
Raymond Jackson, second vice president of the Amalgamated 
Transit Union, Local 689. I'd like to welcome all of our 
witnesses.
    This is an investigation and oversight committee hearing, 
and we do swear in all of our witnesses. So if you'll please 
rise. Raise your right hand.
    Do you solemnly swear or affirm that the testimony you're 
about to give before this committee of Congress is the whole 
truth and nothing but the truth?
    And the record will reflect that all witnesses have 
answered in the affirmative.
    I think--well, maybe not everybody's been here, but we try 
to limit our testimony to 5 minutes. And if you have a request 
for additional information, data, or testimony to be added to 
the record, just request that through the chair. And your 
entire statement will be made part of the record.
    So we'll start out this morning and recognize first Mr. 
Hart, chairman of the NTSB. Welcome back, sir. And you are 
recognized.

                       WITNESS STATEMENTS

                STATEMENT OF CHRISTOPHER A. HART

    Mr. Hart. Thank you. And good morning, Chairman Mica, 
Chairman Meadows, Ranking Member Connolly, and members of the 
two subcommittees. Thank you for inviting me to testify today 
on behalf of the NTSB.
    Chairman Mica, thank you for your years of service in 
Congress and all that you have done to advance transportation 
safety. I'd like to join all the accolades that you have 
already received this morning. I also appreciate Congress' 
continued attention to oversight of rail transit safety on 
WMATA's Metrorail system.
    About 3 weeks ago, the NTSB announced its most wanted list 
of transportation safety improvements for 2017 and 2018, which 
again included improving rail transit safety oversight. The 
NTSB investigations of rail transit accidents involving WMATA 
continue to show that safety oversight of WMATA is unreliable, 
which increases the risk of further accidents, injuries, and 
loss of life. An effective independent oversight system must be 
created to ensure that the highest possible level of safety is 
afforded to WMATA's riders and employees.
    Inadequate oversight of WMATA's Metrorail system is a 
persistent problem. In general, the NTSB investigations of 
WMATA have found that although safety program plans were in 
place, they were not effectively implemented or overseen. 
Oversight challenges regarding WMATA are particularly acute 
because of WMATA's unique oversight structure. Most transit 
properties involve one jurisdiction, and a few involve two, one 
of which typically takes oversight responsibility. WMATA is the 
only transit property in the United States that involves three 
jurisdictions: Maryland, Virginia, and the District of 
Columbia. Moreover, these three jurisdictions collectively 
share oversight responsibility. This constitutes a challenge 
seen by no other rail transit system in this country.
    My written statement further details the history of rail 
transit safety oversight in general and of WMATA's 45 years of 
inadequate safety oversight. Despite efforts over the years to 
improve the FTA's rail transit safety oversight capabilities, 
the NTSB's investigation of the fatal electric arcing and smoke 
accident at L'Enfant Plaza on January 12, 2015 revealed a 
transit system with no effective safety oversight.
    As a result of this investigation, the NTSB issued urgent 
safety recommendations to the Secretary of Transportation on 
September 30, 2015, to seek authority for the Federal Railroad 
Administration to exercise safety oversight over WMATA. Unlike 
the Federal Transit Administration, the Federal Railroad 
Administration has robust regulatory inspection and enforcement 
powers, allowing it to more quickly and more effectively 
address hazards and improve the overall safety of WMATA's rail 
operations.
    The Secretary of Transportation instead tasked the Federal 
Transit Administration with direct safety oversight of 
Metrorail; the first such direct oversight that the FTA has 
ever exercised. The FTA has limited staff to carry out the 
function, has no regulations against which to measure 
compliance, and does not have the authority to levy civil or 
individual penalties in response to safety deficiencies.
    The Department of Transportation furthermore envisioned a 
short-term FTA oversight rule--role, imposing a deadline of 
February 9, 2017 for WMATA's three jurisdictions to create an 
effective State oversight agency. Yet in the face of that, 
we've just learned that Maryland and Virginia have recently 
notified DOT that they will not meet this deadline. The NTSB 
remains concerned that Maryland, Virginia, and the District of 
Columbia will continue to encounter impediments. I want to 
stress again the difficulty in forming an oversight body that 
reports to three jurisdictions. There is still no known date by 
which such a body will be established.
    In the meantime, we continue to investigate accidents that 
illustrate the need for immediate action. Yesterday, the NTSB 
issued an accident brief on the East Falls Church derailment 
that occurred on July 29, 2016, already referred to in this 
hearing. The probable cause of the accident was a wide track 
gauge condition resulting from the sustained use of 
deteriorating wooden cross ties due do WMATA's ineffective 
inspection and maintenance practices and inadequate safety 
oversight.
    Of particular concern is that NTSB investigators learned 
that the defective track conditions that lead to the East Falls 
Church derailment had been previously identified by WMATA 
inspectors, yet were not properly remediated. NTSB 
investigators were also provided additional documentation from 
WMATA showing almost 17,000 open defects reported by WMATA 
track workers, some going back as far as October 2008, as 
already mentioned this morning, and these were still--are still 
waiting to be repaired.
    This accident further illustrates why immediate action is 
required to address safety issues at WMATA. The NTSB remains 
convinced that with the history of accidents at WMATA, the FRA, 
Federal Railroad Administration, their more established 
oversight program is vital to increasing passenger safety.
    Thank you for the opportunity to testify today. I look 
forward to responding to your questions.
    [Prepared statement of Mr. Hart follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

        
    Mr. Mica. I recognize now the FTA administrator. Welcome, 
sir, and you're recognized.

                  STATEMENT OF MATTHEW WELBES

    Mr. Welbes. Chairmen Mica and Meadows, Ranking Member 
Connolly, and members of the committee, thank you for inviting 
me to provide an update on FTA's oversight of the Washington 
Metropolitan Transit Authority.
    And, Chairman Mica, thank you for your support building 
public transportation and our work together on SunRail over the 
years.
    Safety remains the top priority for FTA and the United 
States Department of Transportation. And with that in mind, FTA 
has used the authority granted to us by Congress to ensure 
safety improvements among FTA grantees, including Metrorail. At 
this time, significant work remains to bring Metrorail into a 
state of good repair, to build a strong safety culture, and to 
improve the agency's financial outlook. Years of 
underinvestment and deferred maintenance have contributed to 
Metrorail's deterioration. And it's because of this 
deterioration that Metrorail's daily passengers have not 
received the safe reliable service they should expect.
    Recently, FTA has observed important steps by WMATA 
leadership prioritizing safety over revenue service. But 
establishing and ensuring an enduring safety culture remains a 
critical task.
    WMATA received over $450 million from FTA in fiscal year 
2016. And FTA's ensured that these capital dollars are 
prioritized for improving safety, infrastructure, and 
reliability. In some instances, FTA has used this authority to 
redirect Federal funding to states in a state of good repair 
priorities.
    During 2016, FTA conducted investigations into Metrorail 
track integrity, stop signal overruns, and vehicle securement 
that led to specific corrective actions that WMATA must 
complete. There are results from FTA's work. For the first time 
since 2012, all rail traffic controllers in WMATA's rail 
operations control center have completed required annual 
certifications, and approximately 2,000 employees who had 
expired roadway worker protection program certifications are 
now retrained and certified.
    In addition, while FTA is not in charge of the day-to-day 
work of SafeTrack, FTA directives guided WMATA's prioritization 
of SafeTrack work to locations where the most urgent repairs 
were required to reduce the risk of smoke and fire events. As a 
result, WMATA corrected numerous instances of degraded fire and 
life safety equipment in tunnels that affect emergency 
passenger evacuations.
    In addition to investigations, FTA has conducted both 
announced and unannounced inspections and leads accident 
investigations as warranted. FTA conducted more than 300 
inspections during the past year. We've identified more than 
900 remedial actions. And to date, WMATA has addressed two-
thirds of those. During our inspections, FTA has identified 
operating practices and track conditions that led to immediate 
orders for slow zones or track segment closures protecting 
passengers and workers from unsafe conditions, and much more 
progress is required.
    It is important to note Secretary Foxx has made clear that 
FTA's role is temporary based on the Federal statutory 
framework. Our work will continue until Virginia, Maryland, and 
the District of Columbia establish a new State safety oversight 
agency as required under Federal law. The three jurisdictions 
are required to receive certification of a new State safety 
oversight program no later than February 9, 2017, and failure 
to meet this deadline could result in the withholding of up to 
$15 million in Federal transit funding from 22 communities in 
Maryland and Virginia outside of the Washington, D.C. region.
    In conclusion, FTA provides robust direct safety oversight 
of Metrorail that is making a difference. Based on our unique 
knowledge of transit agencies throughout the U.S., we are 
supporting and guiding the critical steps needed to improve 
WMATA infrastructure, safety culture, and operations, while 
ensuring that the jurisdictions step forward and take 
responsibility for their statutory role.
    The WMATA bus and rail system is vital to our Nation's 
capital region, the economy, and the millions of people who 
rely on it, including me. There is more work ahead that must 
occur at WMATA to make it safer and more reliable.
    I thank you for this opportunity to discuss FTA's direct 
safety oversight of Metrorail, and I look forward to answering 
questions.
    [Prepared statement of Mr. Welbes follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
   
    Mr. Mica. We'll now hear from the WMATA administrator, and 
welcome you back.
    Mr. Wiedefeld. Thank you. Good morning, Chairman Mica, 
Chairman Meadows, and Ranking Member Connolly, and members of 
the committee. I'm Paul Wiedefeld, the general manager and 
chief executive officer of the Washington Metropolitan Area 
Transit Authority known as Metro. I want to especially thank 
and recognize Chairman Mica who has a long and distinguished 
career, obviously, in helping infrastructure around the 
country. Thank you for your service, sir.
    Immediately upon joining Metro last year, we went to work 
to restore public confidence by improving safety and security, 
and making service more reliable and getting Metro's financial 
house in order. As we work to improve Metro, I have sought to 
and will continue to make clear to our customers, employees, 
and the entire region that safety comes before service. The 
year-long SafeTrack program reflected that commitment to safety 
over service.
    SafeTrack accelerates 3 years' worth of work into 
approximately 1 year. The plan significantly expands 
maintenance time on weeknights, weekends, and midday hours, and 
includes 15 safety surges for major projects. And as I detailed 
in my written testimony, we have implemented a number of other 
programs to continue and improve customer and employee safety, 
as well as the customer experience.
    To sustain this progress going forward, we have proposed a 
preventive maintenance program to the WMATA board. We are 
requesting an additional 8 hours a week to do preventive 
maintenance inspections on the system. The goal of the 
preventive maintenance program is to reduce service disruptions 
due to track failures and create opportunities to identify and 
repair track problems before they disrupt daytime rail service.
    On the financial side of the house, Metro ended fiscal year 
2016 on budget and received an on-time clean audit with no 
findings in the first time in 3 years. Also, for the first year 
in recent history, Metro's capital program invested $1 billion 
in the system, spending 85 percent of projected capital budget 
in fiscal year 2016, compared to spending approximately 65 
percent in previous years. And in the current fiscal year, we 
are on a path to spend nearly $1.2 billion, meeting our budget 
forecast.
    Looking ahead, WMATA must bridge a significant projected 
resource gap in order to achieve a balanced operating budget in 
fiscal year 2018. Daily ridership on bus and rail has declined 
significantly in response to poor service, quality, and 
reliability, as well as external factors, while at the same 
time costs have continued to increase. To address this funding 
gap, the proposed operating budget recommends a number of 
actions, including the elimination of an additional 500 
positions for a total of 1,000 positions in fiscal year 2018, 
outsourcing certain functions, a reduction in rail service, 
increased fares, and elimination of certain bus routes, and 
increased subsidies at the local jurisdiction level.
    While we will continue to improve the overall safety and 
financial management of the system, we will be putting much 
greater emphasis on customer experience, particularly with 
regards to reducing unscheduled delays due to poor track 
conditions, improving the reliability of our train fleet, and 
enhancing the station environments in 2017. Our goal for 2017 
is to reduce delays caused by train cars--train car use--train 
cars by 25 percent and unplanned delays caused by track issues 
by 50 percent.
    Finally, we will be establishing a customer-driven metrics 
which will measure our performance to inform our decisionmaking 
from a customer point of view and will be used as a management 
tool for employee accountability.
    I will close by thanking Congress for your continued 
support of Metro through the Federal funding, particularly the 
PRIIA funding, which are invested in long-term improvements to 
the system. You have my full commitment that I will continue to 
work to get Metro back to good. Thank you for your time and 
attention.
    Mr. Mica. Thank you.
    We'll now hear from Chairman Evans. You're recognized.

                    STATEMENT OF JACK EVANS

    Mr. Evans. Thank you very much, Mr. Chairman.
    And good morning, Chairman Mica, Chairman Meadows, Ranking 
Member Duckworth, Ranking Member Connolly, members of the 
subcommittee. And I too want to lend my voice to Mr. Chairman 
Mica for your great service here to the city and to the 
country. Thank you for that.
    I serve as the principle director from Washington, D.C. on 
the WMATA board, and for the last 10 months have been the 
chairman of the board of WMATA. In addition to that, I am the 
Ward 2 council member on the Council of the District of 
Columbia, which represents the central business district, 11 
surrounding neighborhoods, 12 Metro stops. Since 1999, I've 
chaired the council's committee on finance and revenue. And I 
appreciate the opportunity to testify before the committee 
today and provide updates from my prior testimony in April 13 
of 2016. And since then, WMATA has taken significant steps to 
improve safety, reliability, and fiscal management of the 
system.
    I do want to personally take this opportunity to thank 
Congressman Hoyer, Congressman Norton, Congressman Connolly, 
Congressman Meadows, and Congressman Comstock, who I had an 
opportunity to meet with personally on these matters. And I 
want to really take this time to thank you for taking the time 
to sit down personally and meet with me.
    At the top of the organization, a majority of the board of 
directors has turned over in the past few years. We now have 12 
out of 16 new board members, including three new Federal 
representatives who joined the board last spring. In my 
estimation, and I served on the board back in the 1990s for 10 
years, this is the best qualified, most involved, and most 
transparent board that we have ever had at Metro.
    Our general manager, Paul Wiedefeld, has now been at the 
helm for a year. And in that time, he's been able to put 
together a new senior leadership team and implement major 
initiatives to fix the rail system, restructure, and right size 
the agency, and better maintain the rail car fleet. Mr. 
Wiedefeld will provide--has provided a detailed information 
about these, but to summarize again, WMATA has made personnel 
changes, operational changes.
    So far this year, he has hired a new chief operating 
officer, a new chief safety officer, both of whom have decades 
of experience in New York City, a new general counsel, and a 
new chief of internal business operations to improve our 
procurement and administrative functions. He's also 
restructured the management team in March to break down some of 
the longstanding divisions within the agency. As pointed out, 
he fired 20 senior managers, and has already eliminated over 
500 positions in the agency.
    The agency has been undergoing the aggressive SafeTrack 
project, which we have discussed here. However, it is important 
to keep in mind that SafeTrack will not solve all the agency's 
problems. And it will make it safer, it will make it more 
reliable, but in the words of--and, Mr. Connolly, you may 
appreciate this--Winston Churchill--I know you're a big fan as 
well as I am--it's not the end, it's not the beginning of the 
end, it's probably just the end of the beginning. And that is a 
true statement about where we are in Metro's maintenance.
    WMATA's financial condition can be summed up in three 
numbers. If you remember last time I was here, I told you the 
numbers: 300, 18, and 2.5. The numbers have changed a little 
but not much. First, the 300 is 290. 290 is a projected $290 
million operating shortfall in the fiscal year 2018 budget, 
which we are dealing with now. Runs from July 1 to June 30 of 
2018. The gap includes $103 million from ridership and revenue 
loss, $87 million from expense growth related to SafeTrack, and 
$100 million that the agency transferred from capital dollars 
to operating dollars to balance the budget last year.
    Next, 18. Eighteen is still 18. It's the $18 billion in 
capital needs that the agency faces over the next 10 years. 
WMATA has produced now a detailed capital needs inventory and 
reported back to the board this week that the cost of simply 
deferred maintenance and the state of good repair needs over 
the next 10 years is $17.4 billion. This is essentially a 
barebones capital investment needed to get the system back to a 
baseline of operations.
    Additionally, WMATA should execute approximately $800 
million of preventive maintenance measures over the next 10 
years in order to improve its reliability. These capital needs 
do not include an estimated $7 billion in new needs related to 
compliance with NTSB and FTA directives and other issues, 
particularly likes the Rosslyn bottleneck. Briefly, that is the 
Rosslyn bottleneck need for a new tunnel because of the 
construction in Virginia to carry the trains into the District. 
It is a $3.5 billion item that is not included in any of our 
numbers. And, frankly, hasn't even be started the studying of 
how we're going to build this tunnel.
    Finally, $2.8. Two point five was the number I gave you 
before. In the months I've been here since April, it is now 
$2.8. It is WMATA's unfunded pension and other post-employment 
benefits liability deficit. The WMATA board has created a 
special pension committee to review our pension plans and try 
to figure out how to deal with this unfunded liability. $2.8 
billion is a staggering amount for an organization of our size 
that is an unfunded liability. If we fail to address these 
pension obligations, WMATA will find itself in exactly the same 
place District of Columbia was in in 1995. We had a $10 billion 
unfunded liability, and it almost brought the city down.
    The financial situation of WMATA is dire. To fill the 
short-term operating budget gap, the jurisdictions, Maryland, 
D.C., and Virginia, need to increase their subsidy 
contributions collectively next year by $250 million. The 
alternatives, raising fares by 35 percent, closing low 
ridership stations during off-peak hours, continuing to use 
capital funds for our operating budget, puts WMATA at serious 
risk. And again on the capital side, without an increase from 
our current $1.1 billion annual capital funding resources to 
approximately $1.8 billion, we will continue to have the system 
we have today, only further stressed by the hundreds of 
thousands of new riders that we anticipate in the next decades.
    It is important to note here, as Mr. Wiedefeld mentioned, 
that in addition to more capital funding, WMATA has improved 
its capability to utilize those funds. And in the past, we were 
only spending about 65 percent of them. Mr. Wiedefeld has now 
got us up to the point where we spent almost 100 percent of the 
money on capital that we have allocated for the year. We spent 
over $1 billion, which was the highest ever.
    So finally in conclusion, I appreciate the opportunity to 
discuss with you today the continued financial problems at 
WMATA and the steps we have taken to put the agency on a better 
footing moving forward. It's easy to think of WMATA as an 
autonomous entity separate from the rest of the region. But 
it's important to remember this: WMATA is a $40 billion asset, 
a $40 billion asset, in which all of us, Federal Government, 
D.C., Maryland, Virginia, each have a 25 percent interest. So 
with this $40 billion asset, what are we collectively going to 
do to take this asset and maintain it and make it better?
    So I believe with an increased funding, with the steps our 
general manager is taking, and with the collective will of all 
of us in the region, we can fix WMATA. And as has been said 
before, failure is not an option. So thank you for the 
opportunity to testify before you today, and I look forward to 
any questions.
    [Prepared statement of Mr. Evans follows:]
    
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
    Mr. Mica. Thank you.
    And we'll hear from Mr. Raymond Jackson who's with the 
Amalgamated Transit Union Local. Welcome, sir. You're 
recognized.


                  STATEMENT OF RAYMOND JACKSON

    Mr. Jackson. Good morning, Mr. Chairman, ranking committee 
members. Mr. Chairman, I also want to thank you for your years 
of dedicated service.
    My name is Raymond Jackson and I am the second vice 
president of ATU Local 689. Today I am here to give insight 
into the SafeTrack program and the challenges that are facing 
the Washington Metropolitan Area Transit Authority in the near 
and distant future.
    When SafeTrack was first introduced, Local 689 was hopeful 
that it would mark a departure from the culture and old 
practices at WMATA. As things have progressed, we are now 
concerned that WMATA's failure to consult with our union and 
with the experienced employees on the ground will be its fatal 
flaw.
    Had our input been solicited, we would have worked to find 
a better way of getting the work done without disrupting the 
lives of so many riders in this region. We all have family 
members who ride the system daily, and most of us ride the 
system as well. So we know the frustrations with SafeTrack 
firsthand. Unfortunately, the reality of SafeTrack, that it is 
a necessity at this point. If work had been done over the past 
20 years, WMATA would not be disrupting the lives of the people 
in this region in the way that they have the past 6 months. At 
this point, SafeTrack is what riders of the region are left 
with after decades of mismanagement and neglect.
    We are also concerned that WMATA continues reliance on 
outside contractors to do the work that can be done by Local 
689 members has become a way for private companies with no 
investment in this system to make boatloads of money at the 
expense of the public and our riders. Many times our members 
end up having to redo work done by these outside companies. It 
is frustrating for frontline employees and shows a lack of 
respect for the expertise that our members have.
    Our local deals with constant complaints about the lack of 
employee morale. In other transit systems in this country and 
around the world, there's a culture of labor-management 
cooperation where employees are treated with dignity on the 
job. Their opinions are valued and they have a sense of 
ownership in the work that they do. That is not the WMATA way. 
By and large, the invaluable source of knowledge that has 
represented our long-term employees is overlooked and sometimes 
even ignored by management, which leads me to WMATA's budget 
proposal going into fiscal year 2018.
    Local 689 is concerned that the drastic service cuts and 
fare increases proposed by the agency in response to the impact 
of SafeTrack are sure to be the death of this system. The fact 
is people need safe, affordable, and reliable transit service. 
The only way to bring back riders is to restore public 
confidence in Metro. This will no doubt be a slow process. We 
have to prove ourself all over again to a public that has 
understandably had enough of Metro's enormous problems.
    Asking our riders to deal with even longer waits through 
longer headways and stranding bus riders by eliminating 14 bus 
lines is not going to restore customer satisfaction. Neither 
will increasing rail and Metro bus fares. The proposed increase 
will put a hurt on some of our most transit-dependent riders 
who have no other way to get around. Like most transit systems 
that cut routes, WMATA is looking toward those with low 
ridership, early morning, late night, and weekend service. 
People who work nontraditional hours will be disproportionately 
affected.
    Laying off 1,000 employees, once again shedding sorely 
needed knowledge and putting a huge burden on a shell of a 
workforce, is not only ill-advised but also dangerous. Yet, 
this is WMATA's plan to dig out of this hole.
    Through its slash-and-burn budget proposal, Metro is using 
the self-inflicted SafeTrack crisis to justify mass cuts in 
service that would never be accepted in this region under 
normal circumstances. Metro riders need to call them out, 
letting them know that we need more, not less service. If we go 
along with this plan, people will forever abandon the system 
and it will crumble, causing an embarrassing mobility crisis in 
our Nation's Capital.
    The answer to Metro's current budget hole is a short-term 
cash infusion, to get the system back on its feet. If Congress 
had not come into the aid of the American auto industry during 
the financial crisis 7 years ago with the $80 billion bailout, 
these companies would have evaporated. Now America's transit 
system needs a smaller boost. We call on Congress, Maryland, 
D.C., and Virginia to come through with the revenues necessary 
to see Metro through this crisis and urge the agency to work 
hand-in-hand with us in an effort to prolong and develop a 
long-term dedicated funding stream from the Federal Government 
and the jurisdictions that will help improve the system and 
ensure that we never face these dire circumstances ever again. 
Transit riders and our members deserve nothing less. Thank you.
    [Prepared statement of Mr. Jackson follows:]
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
    
 
    
    Mr. Mica. I thank all of the witnesses and we'll turn now 
to questions. I guess I started out commenting on the East 
Falls Church derailment NTSB report. And it quite specifically 
says that interviewers suggested inspectors fabricated track 
measurement and inspection reports. I've got some of the 
inspection reports that were ignored.
    Mr. Wiedefeld, I know we just got the report yesterday. And 
almost every time you come before me, I say, well, steps need 
to be taken to hold people accountable. And you've done that. 
You got rid of some of the management people who were not 
effective and others.
    Now, it seems like it's fairly simple to trace this back to 
people from the report and who they interviewed. And then the 
reports that were submitted, someone was responsible for 
ignoring those reports. Can these people be held accountable?
    Now, you know me. My recommendation is fire those that did 
not perform. Can we have some results and action, based on what 
we've seen from this report?
    Mr. Wiedefeld. Yes, Mr. Chairman, if I could just give you 
a bit of background. What the NTSB action report is the 
information that we gave them. That was part of an independent 
investigation that I had started immediately where I had 
outside people come in.
    Mr. Mica. So have those people been--I mean, you had the 
information and gave it to them. Have you taken action already?
    Mr. Wiedefeld. Yes. What I did immediately is once I 
basically got informed about what we were hearing and what we 
were seeing, I started a criminal investigation. I've hired two 
independent prosecutors. That investigation is still open.
    Mr. Mica. Okay.
    Mr. Wiedefeld. So I do not want to comment any further on 
that.
    Mr. Mica. Okay.
    Mr. Wiedefeld. But that is exactly what we are doing.
    Mr. Mica. Again, holding people accountable, and there are 
consequences for inappropriate or negligent action, and if it's 
worse than that they need to be--I'm told that the--I asked 
about an inspector general for the operation or someone 
overseeing. I'm told that that's a weak position, either 
through the performance of the current individual or the 
position not having the authority to go in and take some 
action. What's your assessment?
    Mr. Wiedefeld. The OIG answers to the board; they do not 
answer to me. That office is under----
    Mr. Mica. Mr. Evans, do you want to comment on it? Again, 
unless you have somebody with some teeth to go after people--
the information that I'm getting is the IG is either weak in 
performance or the position is weak. What do you say?
    Mr. Evans. What I have tried to do as the chairman, Mr. 
Chairman, is to empower the IG to be more aggressive than it 
has been in the past.
    Mr. Mica. Do you set that authority up or is that set by 
statute, Federal statute?
    Mr. Evans. Federal statute. That is in the compact.
    Mr. Mica. It is, Federal statute?
    Mr. Evans. Yes.
    Mr. Mica. I'm not going to be here, but that might be 
something you all could look at is strengthening the IG 
position so it's got some teeth. Somebody's got to do 
something. I mean, they see something wrong and there has to be 
action taken. That's why we have the IG system, and if it's 
weak.
    So that would be something I would recommend, either--if 
you don't have that authority, you need to get the information 
to the folks that can modify that and do it quickly.
    Mr. Hart, what's the status of our arcing connections?
    Mr. Hart. Thank you for the question. We just issued our 
final report on that recently, so the recommendations are 
relatively recent. The recommendations that are a little older 
were our urgent recommendations about the connection of the 
power cables, that they needed--that we saw many of them were 
missing some of the sleeves to keep----
    Mr. Mica. Right.
    Mr. Hart. --the stuff out.
    Mr. Mica. I went down, looked at that.
    Mr. Hart. Correct.
    Mr. Mica. And saw the arc.
    Mr. Hart. And we're seeing good progress on the action. 
WMATA has been quite cooperative.
    Mr. Mica. But where are we? Do you know? Maybe Mr. 
Wiedefeld can tell me.
    Mr. Wiedefeld. Yes. We've eliminated--it's the Orange 
boots. We have basically replaced all those in the underground 
system, which is where the key issue is, and we have--
basically, we have about 5 percent left on the aboveground, and 
that's to be done with the remaining surges. When we get into 
those surge areas, we'll replace those.
    Mr. Mica. Okay. So you're about 5 percent. So the smoke--
maybe this site that I cited that you can go on and see if 
Metro's on fire can be taken down pretty soon.
    Okay. Arcing and the connections. Communications, worked on 
that for God knows how long. Where are we? I understand the 
agreement has been executed with the cell companies. The 
installation has begun. I understand there's only three areas 
between stations that are now operating, up and operating.
    Mr. Wiedefeld. Right. And we will continue to do that. 
Basically, we're doing that as part of the shutdown that we're 
doing.
    Mr. Mica. I know, but that's not good. What is the 
schedule?
    Mr. Wiedefeld. The Red Line, east side of Red Line will be 
done in 2017.
    Mr. Mica. How many total, 70 is it, areas that aren't 
covered? And we have three underway, and then I'm told there 
are some that are in the process of being--having the equipment 
installed. Is that correct?
    Mr. Wiedefeld. Yes, sir.
    Mr. Mica. But what's the balance for the balance?
    Mr. Wiedefeld. We will have the Red Line done in 2017. We 
will have the Blue and the Orange Line done east of Metro 
Center.
    Mr. Mica. Give me the numbers. So we're at three. In 
another year, will we have 50?
    Mr. Wiedefeld. I can give you the entire schedule.
    Mr. Mica. Okay. I'd like that in the record.
    Mr. Wiedefeld. I will.
    Mr. Mica. And you can follow up.
    Mr. Mica. Again, if you don't have communication, I mean, 
when they couldn't communicate--and we held funds up a couple 
of times. I think I participated in that to get your attention. 
But we've got to have the communications between the stations, 
both for the safety of the passenger but also for the crew and 
everybody else to communicate. So that's one that is still 
undone.
    Okay, back to Hart. You had 16,800 recommendations--or 
defects, rather. Tell me the status of any of your 
recommendations that are undone or some of these defects that 
you cited.
    Mr. Hart. Thank you for the question. This goes to the 
fundamental premise that we said the Federal Railroad 
Administration needs to be in charge, because when there are 
defects that aren't fixed then the FRA would go after that. 
There is no----
    Mr. Mica. I'll go to FTA in a second. But, to your 
knowledge, there's still a huge number of defects that have not 
been addressed, one; and then, two, the recommendations that 
you had, I forget how many you had of that, but very few of 
those have been met.
    Mr. Hart. Let me clarify. It's not only defects that have 
not been fixed; it's also maintenance schedules that aren't 
being done.
    Mr. Mica. Right. Right.
    Mr. Hart. They were supposed to inspect that every--twice a 
week, and we found they were inspecting it monthly in the 
crossover. So that's an example of where their own internal 
requirements for--WMATA's own internal requirements for 
maintenance schedules weren't being met.
    Mr. Mica. But, again, you had the list of recommendations 
for improvements, and then we have a larger list of defects 
that were identified. Mr. Wiedefeld, do you want to respond? 
Where are we?
    Mr. Wiedefeld. We do have a very large backlog. Basically, 
we're prioritizing those that are the most severe. And that is 
one of the reasons why we're asking for additional time to do 
preventive maintenance on an ongoing basis.
    Mr. Mica. What percentage of your maintenance is 
contracted-out work, and some of these repairs?
    Mr. Wiedefeld. I don't know the exact percentage, but we 
have----
    Mr. Mica. Twenty percent, 10 percent?
    Mr. Wiedefeld. In that range. In that range.
    Mr. Mica. Okay. Well, based on the images that were given 
to me, you got a lot of people out there but not a lot of them 
working, and something has to be done there. I mean, Mr. 
Jackson ain't going to like this, but--and I think you still 
have some negotiations to go or something, but whatever you 
have to--whatever steps to get somebody in there that can 
perform. If they can't do it, they need to go. If you are 
hiring contract people, they need to perform and have them take 
over some of that responsibility.
    Okay. Let me go finally to FTA. Since September, I think 
Mr. Connolly and I both agree FTA has limited capability--it's 
been mostly a grant agency, I guess--to conduct the safety 
oversight. The recommendation from Hart and NTSB was FRA. Do 
you want to speak to the deficits in capability that you have? 
And I understand some of that's been made up by partnering or 
cooperating with FRA. Mr. Welbes.
    Mr. Welbes. So a year ago, when FTA determined that D.C., 
Maryland, and Virginia were not capably carrying out their 
State safety oversight responsibilities, which is part of the 
Federal statutory structure, FTA used authority that Congress 
had given us and we stepped in. And we have the authority to 
conduct investigations, and we've conducted four investigations 
during the past year. We've looked at stop signal overruns, 
track integrity, vehicle securement, traction power. We've 
issued report-outs on three of those. We've issued requirements 
to WMATA for specific actions associated with those 
investigations. We've conducted over 300 inspections. We're on 
site at WMATA about six days out of seven during the past year.
    And as a result of our inspection work, we've issued 900--
identified 900 defects for WMATA to correct. They've corrected 
about two-thirds of them to date. In a number of instances, our 
inspections of track have resulted in taking track out of 
service or slow orders. And the oversight of Metrorail 
exercised by FTA is probably the most scrutiny U.S. DOT has 
ever applied to about 220 miles of track.
    We also have the authority to direct spending, and in two 
instances, at least, we've directed WMATA to move spending from 
one purpose to another. We directed spending in one case to, 
$20 million toward the 7000-series cars to replace the 1000-
series cars, which are subject to an NTSB recommendation to 
remove them from service. We also redirected WMATA funds toward 
corrective actions that FTA identified a year ago, one of which 
includes replacing and updating a track management inventory 
system, to get a handle on the defects that have been 
identified.
    We also have requested from Congress in the past the 
authority to issue civil penalties, and we've also requested 
the authority three times from Congress for the ability for 
criminal penalties since 2008. We've asked for that from 
Congress.
    Mr. Mica. And that has not been granted. Let me turn to Mr. 
Connolly.
    Mr. Connolly. Thank you, Mr. Chairman. Mr. Welbes, 
listening to you, apparently you're just providing robust 
safety oversight. You're sitting next to the man charged with 
transportation safety who says otherwise. He says you don't 
have the capability.
    I met with Virginia authorities yesterday who are writing 
their part of the tri-State safety oversight legislation, 
which, by the way, Mr. Hart, is subject to legislative cycles. 
It doesn't happen like that. Our legislature meets in January, 
and only the last 2 months we're a part-time legislature. And 
they tell me that you don't cooperate with them, that, in fact, 
when they seek information from FTA on Metro, they're told that 
it's proprietary. They've been denied documents and access to 
information they think is material.
    And I'd like you to address Mr. Hart, who says you don't 
have the capability. Far from your testimony of robust 
oversight, you don't have the capability for much by way of 
safety oversight, frankly, and you've had to borrow from 
resources from the FRA.
    Mr. Welbes. So, Mr. Connolly, the recommendation from the 
NTSB we take very seriously. A year ago, when we recognized 
that the States were not performing their duty, we used the 
authority that we have at U.S. DOT. So we've requested 
authority from Congress.
    And the recommendation that Mr. Hart has put forward would 
require a Member of Congress to introduce a bill that would 
allow the U.S. DOT Secretary to assign WMATA safety oversight 
to the FRA. And then FRA would have to substitute its rules for 
WMATA's rule book. So the Secretary cannot do that without 
Congress taking action.
    Mr. Connolly. Well, I will simply point out that the man 
sitting next to you, his agency authored a report issued 
yesterday that reiterated that it's the FRA that ought to have 
jurisdiction here, not the FTA, because of capability issues.
    Mr. Welbes. All right. So we have also requested from 
Congress additional resources and authority to put into effect 
the new safety responsibilities that Congress gave to us in 
2012. So we requested back in 2009, after the Fort Totten 
incident, additional Federal Authority----
    Mr. Connolly. Why not just give it to the FRA, as the NTSB 
recommended initially?
    Mr. Welbes. So Congress, in two successive authorizations, 
both in MAP-21 and the FAST Act, assigned that responsibility 
to the Federal Transit Administration, and we are assertively 
exercising it right now.
    Mr. Connolly. Does the Secretary of Transportation have the 
statutory authority nonetheless to act on the NTSB 
recommendation and give it to FRA?
    Mr. Welbes. The Secretary of Transportation could act on 
the FRA recommendation, which is to ask Congress for authority 
to reassign the role for----
    Mr. Connolly. He chose not do that.
    Mr. Welbes. A member of Congress can introduce a bill in 
the chain.
    Mr. Connolly. No, wait a minute, don't beg the question. 
The Secretary of Transportation received a report from the NTSB 
that involved fatalities, and their recommendation--very 
serious--said FRA needs to have this, not FTA, for lots of 
reasons, not because you aren't willing but because you're not 
capable, and safety comes first.
    And the Secretary chose to do nothing about that other than 
give it to you. His hands aren't tied. I don't remember 
receiving any legislative request from the Secretary of 
Transportation to give him the authority to make sure he can 
implement the NTSB recommendation. This is not a trivial issue.
    Mr. Welbes. We have pulled together substantial resources. 
We've created a WMATA oversight office. We've pulled together a 
team from DOT, including FTA officials and other capable people 
in the Department, to do direct oversight of WMATA.
    Mr. Connolly. So do you dispute the latest report from NTSB 
that says, despite your pulling together substantial resources, 
you weren't on the job at the East Falls Church derailment?
    Mr. Welbes. We have identified--we have walked miles of 
track. We've applied more scrutiny to the 220 miles of 
Metrorail than the Federal Government has ever applied to any 
rail system. While we've identified many instances where track 
has been taken out of service, we did not find the Falls Church 
incident--we are doing oversight of Metrorail. Metrorail is 
responsible for the day-to-day oversight. They actually have 
standards that the NTSB's report identifies, which call for two 
times--biweekly reviews of all tracks safety----
    Mr. Connolly. Mr. Hart, I'm going to give you--sorry, I'm 
running out of time.
    Mr. Hart, I want to give you an opportunity to respond to 
that. Is that how you see things?
    Mr. Hart. Fundamentally, the starting point of effective 
oversight is regulation so that everybody knows what can be 
done and what can't be done. Those aren't there. They won't be 
there any time soon. We were looking at not only the structure. 
This is not a criticism of the FTA. We're looking at the 
structure that presently exists. That structure is not there 
with FTA.
    Mr. Connolly. Right.
    Mr. Hart. In order for them to have that, that's going to 
take quite a bit of time. The FRA already has it. We were 
looking to do an immediate remedy instead of waiting for all 
that----
    Mr. Connolly. And does the Secretary of Transportation have 
the authority to implement that immediate recommendation of 
yours?
    Mr. Hart. Our recommendation was to ask Congress to include 
the--within a list that's a legislative list this property, 
WMATA, so that it would be overseen by the Federal Railroad----
    Mr. Connolly. And did the Secretary act on that 
recommendation?
    Mr. Hart. No. The Secretary said that he would prefer to 
leave the oversight with Federal Transit Administration.
    Mr. Connolly. Thank you.
    Mr. Evans, you're a politician, you run for office, right?
    Mr. Evans. Indeed, I just got reelected.
    Mr. Connolly. Congratulations.
    Mr. Evans. Thank you.
    Mr. Connolly. So one of the things we have to do in 
politics is build public support, especially for things that 
involve costs. Is that right?
    Mr. Evans. Yes.
    Mr. Connolly. So do you think your comments and those of 
Mr. Price, your D.C. colleague on the Metro board, are helpful 
to those of us in Virginia and Maryland, in trying to build any 
kind of public consensus about a dedicated source of revenue, 
when you threaten on that board to close down the largest 
single connection to Metro in northern Virginia?
    Your remarks were calculated to be helpful to us. Is that 
right? Or were you just playing games to appeal to somebody in 
maybe your jurisdiction, without regard to the implications in 
our jurisdictions, where we're trying to actually be 
supportive?
    Mr. Evans. The background on Mr. Price's comments is the 
following.
    Ms. Comstock.  We can't hear.
    Mr. Evans. Sure. The background on Mr. Price's comments is 
the following: We have a $290 million shortfall this year that 
will only get greater in the future.
    Mr. Connolly. Mr. Evans, I don't need a lecture about the 
current condition of Metro. I know it intimately. I'm asking 
you a question about what you and Mr. Price were getting at in 
threatening Virginia's largest investment in Metro, which, by 
the way, involves Federal funding. The largest single TIFIA 
grant in the history of the Department of Transportation went 
to the Silver Line. So it involves Federal participation, and 
that has implications for whether we renew the 150 million CIP, 
let alone talk about a Federal operating subsidy, which you and 
I share.
    And I'm here to suggest to you that your comments and those 
of Mr. Price were cheap and reckless and have huge implications 
on my side of the river. You don't want, at least you say you 
don't want--you campaigned against the parochialism of your 
colleagues on the board, and yet you and Mr. Price are now the 
exemplars of the very parochialism you decried. And you've done 
real damage on our side of the river. Do you want to respond to 
that?
    Mr. Evans. If you'd give me a moment, I'd like to.
    Mr. Connolly. Of course.
    Mr. Evans. So, again, everything is on the table in trying 
to deal with these huge deficits we have, going forward. It's 
clear to me now that neither Virginia nor Maryland will do a 
dedicated funding source any time in the future, and it's 
unlikely we will get any Federal help. So I have--the cards I 
have are the deck I have to play with.
    Mr. Price was only responding to a question in suggesting 
how we can save money. The Silver Line, as you know, is not 
being built by Metro. It's being funded by, as you say, Federal 
dollars and the Commonwealth of Virginia. Although, when the 
Silver Line is built----
    Mr. Connolly. And by a special tax district entirely funded 
by Virginia businesses.
    Mr. Evans. I understand. But when the Silver Line is built, 
you turn it over to us to operate. The ridership on the Silver 
Line as of yesterday in our briefing is one-third of what was 
predicted. The Silver Line was hoped that the ridership would 
be so great it would cover its operating costs. It's not even 
close. So we are today losing tens of millions of dollars on 
operating the Silver Line.
    When the Silver Line is complete, given the projections, 
Metro will then be losing hundreds of millions of dollars a 
year to operate the Silver Line. So Mr. Price, who is one of 
the most successful African American businessmen in the country 
and is a turnaround specialist, looking at this as a business, 
was saying, how are we going to afford to operate the Silver 
Line to the tune of hundreds of millions of dollars a year when 
we are losing $3- to $400 million a year already.
    So I think the answer, Congressman Connolly--and you and I 
are on the same page on this.
    Mr. Connolly. I don't think we are.
    Mr. Evans. No, we need more funding from the jurisdictions 
in terms of the dedicated funding sources.
    Mr. Connolly. First of all, I don't know whether Mr. Price 
is aware of the development plans along the Dulles Corridor, 
because we are building lots of residential development that's 
going to change those ridership numbers very fast, but it's 
dependent on the Silver Line being there. In Tysons alone, 
there are five high-rises that have gone up since we opened the 
Silver Line, with thousands of new residents. The goal is to go 
from 17,000 people who live in Tysons to 100,000, and it's the 
Silver Line that's critical for that.
    But let me just say philosophically, you know, it's very 
hard to listen to that when you've threatened a regional veto 
for any service cuts that affect your District. But you have no 
compunction to say to an entire State that the major investment 
in Metro ought to be closed. And you go down that road and you 
fracture the regional coalition, you fracture support up here, 
and you actually do real harm to long-term prospects for Metro. 
And that's my message to you. I've run out of time.
    Mr. Evans. I am a big advocate of expanding Metro. I think 
the Silver Line will be a tremendous addition to Metro.
    Mr. Meadows. [Presiding.] Mr. Chairman, Mr. Evans, let me 
come back to you then, because the gentleman makes a valid 
point. Are you suggesting that you looked only at Virginia to 
close down something that had an operational deficit and didn't 
look at other areas that have operational deficits for closing 
it down? Because I haven't seen any suggestions other than what 
the gentleman from Virginia is talking about and what Ms. 
Comstock has mentioned to me. And so you're saying that you 
wanted to protect D.C. and take it from operational deficits 
that are in Virginia and Maryland?
    Mr. Evans. No. Actually, Mr. Chairman, there's a long list 
of cutbacks in service, many in the District, many in Maryland, 
many in Virginia.
    Mr. Meadows. Well, but what I've read in the Washington 
Post and other places is basically anything that touches 
anything, that has anything to do with Washington, D.C., there 
is this unbelievable outcry that we can't touch anything. Is 
that not your position?
    Mr. Evans. Well, no, Mr. Chairman. Actually, as of 
yesterday, the District made a huge concession to allow the 
late night hours to be curtailed yet again for another year and 
possibly 2 years, which is very much against our interests. But 
I was able to convince the mayor and the council to go along 
with that because----
    Mr. Meadows. But not do away with them entirely forever.
    Mr. Evans. Well, we'll see. Again, you evaluate everything 
every year or 2 years to make sure.
    Mr. Meadows. But you get----
    Mr. Evans. No, I get your drift.
    Mr. Meadows. --my friend's point is that you're making a 
drastic comment that affects Virginia; and then just the little 
teeny aspects of inconvenience in Washington, D.C., you debate 
for hours. You follow me?
    Mr. Evans. I do.
    Mr. Meadows. All right. So let me go on a little bit back 
to you, Mr. Wiedefeld. Do you believe that the SafeTrack 
program is placing the system in a state of good repair that 
will allow riders to feel secure and safe on the system?
    Mr. Wiedefeld. I do for the above-ground portion of the 
system, because that's where our focus has been on, 
particularly on the rail tie portion of it and the fasteners 
there.
    Mr. Meadows. All right. Mr. Evans, do you believe the same 
thing?
    Mr. Evans. I do, Mr. Chairman.
    Mr. Meadows. Let me come to the FTA. Do you believe that as 
well?
    Mr. Welbes. The SafeTrack work is an important step as part 
of an overall----
    Mr. Meadows. That's not the question. That's a great answer 
to a question I--they just answered it. So just answer the 
question. Yes or no?
    Mr. Welbes. Yes.
    Mr. Meadows. Okay. Mr. Hart, let me come back to you. I 
want to come back to the East Falls Church derailment and what 
the NTSB determined to be the probable cause of this. Could you 
help illuminate us for what the cause of that derailment was?
    Mr. Hart. Yes. This is an area, it's a crossover area 
crossing over between parallel tracks, and it's an area that 
has wooden ties and the wooden ties were left to deteriorate 
for quite a long period of time. This is a----
    Mr. Meadows. So what you're saying is it couldn't have 
happened in a short period of time?
    Mr. Hart. Correct.
    Mr. Meadows. So this happened over a very long period of 
time?
    Mr. Hart. Correct. Some of the ties may even go back to 
original construction. We don't know, but they've been there a 
while and they've been deteriorating for a while.
    Mr. Meadows. So you're saying the original construction of 
that particular area is left without any maintenance that 
caused a derailment?
    Mr. Hart. Inadequate maintenance in this particular segment 
where we investigated for that accident, correct. We had the--
that's why we looked at how frequently were they----
    Mr. Meadows. Can we put the picture up on the screen? If 
you all would all turn your attention to this. Now, if you'll 
notice that wheel there, actually the rail I guess is supposed 
to be between----
    Mr. Hart. The wheel should stick outside of it, should be 
outside of the rail.
    Mr. Meadows. And so it's actually just on the top of the 
rail there. Isn't that correct?
    Mr. Hart. Correct. Correct. Close to derailing, because 
it's close to----
    Mr. Meadows. Close----
    Mr. Hart. On the inside side of the rail.
    Mr. Meadows. And so, in your opinion, this would be 
something that is not only a hazard, but something that is a 
derailment waiting to happen?
    Mr. Hart. This under FRA rules would have been required to 
be out of service, because of the failure to meet the gauge 
requirements.
    Mr. Meadows. What kind of rules did you talk about?
    Mr. Hart. Federal Railroad Administration rules would 
require this track to be out of service.
    Mr. Meadows. So I guess that's why we haven't called them 
in is because they would have seen this?
    Mr. Hart. Well, their requirements would say, if you see a 
defect, you have to act on the defect within 30 days. And this 
defect has been around for a lot longer than 30 days. This 
would have been acted upon or put out of service, one or the 
other, a long time ago.
    Mr. Meadows. So who's not doing their job?
    Mr. Hart. Well, this is why we're asking for FRA to be 
overseeing this, because there are no similar--there are no 
analogous requirements by the Federal Transit Administration.
    Mr. Meadows. So let me come back to you at the FTA, because 
you keep coming back and saying, well, Congress can do this and 
Congress can do that. And I appreciate that. I know Secretary 
Foxx well, talked to him just the other day.
    So have you made a request for Congress to actually give 
you the statutory authority that you seek?
    Mr. Welbes. Yes. So we are following up on----
    Mr. Meadows. Have you made the request, yes or no?
    Mr. Welbes. Yes, we have.
    Mr. Meadows. All right. To whom?
    Mr. Welbes. Pardon me?
    Mr. Meadows. To whom?
    Mr. Welbes. We actually have the authority to issue 
regulations in the area that Mr. Hart is describing.
    Mr. Meadows. Well, then why haven't you done it?
    Mr. Welbes. We received authority from Congress to do that 
in recent years. We actually have an assignment in the FAST Act 
from one year ago.
    Mr. Meadows. But let me just tell you, it is not good 
enough for you to continue--we have derailments and injuries 
that are happening on a regular basis while you already, as you 
just testified, have the authority to fix it and you're not 
fixing it. How many more people have to die before we get you 
to act in the appropriate manner?
    Mr. Welbes. Chairman Meadows, the broad framework that 
Congress set forth and our regulatory structure right now has 
FTA holding transit agencies accountable for the standards they 
have in place. So, for example, WMATA's track maintenance and 
inspection standards are actually more strict for rail track 
lateral movement than the FRA standard. The problem here is 
that the culture overcomes the rule book in this instance.
    Mr. Meadows. So you're going to blame it on Mr. Jackson and 
all his union employees, is that what you're saying? I'm going 
to get to the bottom of it here. It's going to end today. I'm 
tired of the double-speak.
    Mr. Welbes. WMATA does----
    Mr. Meadows. So is it his fault?
    Mr. Welbes. If WMATA was following its standards, the 
incident should not have occurred.
    Mr. Meadows. Whose fault is it?
    Mr. Welbes. It's a systematic fault of all the people 
involved in that process.
    Mr. Meadows. All right. So you're involved, so it's partly 
your fault?
    Mr. Welbes. We are overseeing WMATA----
    Mr. Meadows. So it's partly your fault.
    Mr. Welbes. --to run its operation. Mr. Wiedefeld has been 
taking steps to make----
    Mr. Meadows. Okay, yes or no, do you have any role in the 
fault of injury here, yes or no?
    Mr. Welbes. We take seriously our responsibility----
    Mr. Meadows. That's not the question. Great answer to 
another question I didn't ask. Are you partially at fault?
    Mr. Welbes. FTA's lack of authority has been a contributor, 
yes.
    Mr. Meadows. You just told me you had the authority. Now, 
you can't have it both ways. Are you partially at fault?
    Mr. Welbes. Sure, sir.
    Mr. Meadows. So when are we going to get it corrected? 
Because let me just tell you, I'm tired of people blaming 
different people for the problem and having hearing after 
hearing. Mr. Hart has done his work. Mr. Wiedefeld is doing his 
work. We have a union that says that they're willing to give 
you and participate and I would assume even fire some of their 
own union members. I don't want him to go on record, he may not 
get reelected if he does, but I assume that they're willing to 
do it.
    And yet it keeps coming back to you and your unwillingness 
to get the appropriate people involved in the oversight and 
management along with the other team. So I want you to report 
back to this committee within 30 days the action plan that 
you're going to have to address that, to be able to work with 
the recommendations that we just heard, to be able to work with 
the recommendations of Mr. Wiedefeld, Mr. Jackson with the 
union. Thirty days. Is that reasonable?
    Mr. Welbes. Yes, sir.
    Mr. Meadows. All right. Now, let me finish with one other 
aspect. We are here today to get to the bottom of the problem. 
Mr. Jackson, I heard you say that you could come up with a plan 
to fix this, that if they just listened to your union employees 
that you could do that. Now, I'm going to hold you to your 
word, because here's what I want you to do, is I need you to 
come back to this body within 30 days. I'm going to give you 
the same time. Is that fair, Mr. Jackson?
    Mr. Jackson. That's fair.
    Mr. Meadows. And I want you to come back with four 
recommendations on what we could be doing differently. And one 
of those recommendations needs to be what the union could be 
doing differently to actually fix this problem. Are you willing 
to do that, Mr. Jackson?
    Mr. Jackson. I am most definitely willing to do that.
    Mr. Meadows. All right. And my door is open to you, where 
you can come meet with me at any particular time if you believe 
that your union workers are not being heard. I'm willing to 
listen, because we're going to fix this problem.
    Mr. Wiedefeld, I want to say this: You're making a lot of 
difficult decisions that will make a lot of people angry, and I 
told you earlier before this that this is not a good career 
move for you, because anything that you do to fix a problem is 
going to be criticized by somebody. But here's what you do 
have: You do have a bipartisan support with Mr. Connolly and I 
and others on this committee that what we're willing to do is 
if you'll make the tough decisions, we'll ask the tough 
questions and hold people accountable and make sure that we do 
that. So I want to thank you for your work.
    And I am over time, and so I'll go to the gentleman and 
recognize him for 5 minutes.
    Mr. DeSaulnier. Thank you, Mr. Chairman.
    Briefly, just a comment. I'd like to yield the balance of 
my time to Mr. Connolly. Fifteen, 20 years ago, I was a local 
elected official in the San Francisco Bay area. I came back 
here with a then Surface Transportation Policy Project with 
some members from California to look at WMATA and the land use 
decisions you were making here as a model for California, where 
we know in a car culture we have to get transit ridership up, 
and in the Bay area specifically, where BART, the Bay Area 
Rapid Transit system, doesn't carry nearly the number that you 
do. It's still 5 percent of our total trips. And when they went 
out on strike, we saw the implications for the region. I think 
it was $75 million a day that we lost in production.
    So, Mr. Wiedefeld, the challenges you have, as somebody 
who's believed for over 20 years that as we've become more 
urbanized we have to change our land use patterns. You have 
great examples of transit-oriented development that we've tried 
to replicate around the country. You are in this conundrum as a 
retailer where your ridership's going down because of the lack 
of confidence. You have to lay point-of-sale people off and 
support system.
    How do you get that back? Understanding that safety is 
first, but the retail aspect of you've got to get ridership up. 
And I'll put this in the context of how once you were--how you 
were perceived once around the country and how experience, 
anecdotal experience. The last 2 years, as a Member of 
Congress, I've been looking to purchase a piece of real estate 
here in the metropolitan area. And I looked across the river; I 
looked on Capitol Hill. And my realtor said, you want to be on 
Capitol Hill, because you can't trust WMATA. If you go across 
the river, you won't be able to trust it. Well, that 
contradicts all the planning that you have done, Mr. Connolly, 
local elected officials, that we have replicated in other parts 
of the country, where we want people to be able to live in 
different areas and help with the cost of housing.
    So long-term, you get the safety problem fixed and the 
urgency of now, but how do you get that confidence back and how 
quickly can you do it so we get transit ridership back up?
    Mr. Wiedefeld. Well, we have to focus on, once again, the 
trains running on time. That's the bottom line, and there's two 
elements to do that. One is the track. We can't have issues on 
the track when we have open for revenue service where we have 
to pull trains down because of some issue. And that's what 
we're focussing on for 2017, now and into 2017.
    And the other is the cars. Basically, we have a very old 
fleet, and we're changing out that fleet. The sooner we get 
that done, the quicker we can get into more reliable service. 
So that's the other focus for us, because that's where I have 
to focus on. The safety has to be--obviously goes forward all 
the time, but we've got to get the service reliability up, and 
it's around tracks and it's around cars, and that is our 
primary focus for 2017.
    Mr. DeSaulnier. Just a comment about FTA and NTSB. And Mr. 
Welbes, I appreciate you at least admitting responsibility, and 
I share the chairman and Mr. Connolly's frustration. Again, in 
the Bay area, it's been very hard and frustrating, because I 
think--this is a national problem. We can't consistently have 
5, 10 percent transit ridership as the total trips in regions, 
in metropolitan areas in the United States. It won't work. It 
doesn't work. It's inhibiting our economic growth. Los Angeles 
is making great strides, but they're still 4, 5 percent.
    So whether it's Congress, whether it's partnership with 
you, we have to change your role. I have asked the former 
acting administrator who used to work with me at the 
Metropolitan Transportation Commission, for whom I have much 
respect, Therese McMillan, can you at least give us guidelines 
about best practices on our budgets, what's the appropriate--
with a range of what we should have in operating reserves, 
capital reserves. How can we help with our negotiations to make 
sure that our employees who live in high cost of living areas, 
like the Bay area, most urban areas, get a fair and equitable 
wage but still maintain the retail and the safety excellence, 
so you get that ridership back up.
    So as an observation, this is a national problem and I 
really wish that FTA and the administration and the future 
administration would act with Congress in a bipartisan fashion 
to figure out what's your best possible role, not just when it 
comes to safety, but best practices around finances.
    And, with that, I would like to yield the remaining of my 
time, Mr. Chairman, to Mr. Connolly.
    Mr. Connolly. I thank my friend.
    Mr. Jackson, over to you, I heard your testimony and it 
sounded good about, you know, commitment to customers and so 
forth. What about ATU and what about the union's 
responsibilities, though, in terms of accountability? We have a 
situation--I'm not asking you to prejudge it, but, in theory, 
do you agree that if somebody falsifies records and endangers 
public safety, their job ought to be on the line? I mean, we 
had the union try to overturn the decision made by the general 
manager when we had an operator who blew through a red light, 
endangering lives. Now, maybe there was a good case. I'm all 
for due process. I'm a Democratic, I support unions. But I also 
insist there has to be some accountability in the workforce and 
that it's your job to join with management in making sure that 
the tradeoff is good wages and performance.
    And I want to hear more about that, because I didn't hear a 
lot of that in your testimony, especially after yesterday's 
release of the NTSB report on a derailment that involved 
workers who falsified records.
    Mr. Jackson. Well, Mr. Connolly, I would be more than happy 
to touch on that.
    Mr. Connolly. I can't hear you.
    Mr. Jackson. I would be more than happy to touch on that a 
little bit for you. As far as workers and the falsification of 
documents, one, you will have to really understand the culture 
at WMATA.
    If you go to these workers and you are asking these workers 
about these documents, these are the documents. And part of it 
is training and the harassment that the workers receive from 
the managers. Why would a manager give a worker a task that he 
knows is impossible to complete?
    Mr. Meadows. Hold on. You're saying that they falsified the 
records because they were harassed to be able--Mr. Jackson, 
that's a big leap, because if--I mean, if that's happening--so 
you're saying they falsified the records because someone forced 
them to falsify them?
    Mr. Jackson. No. In their mind, they did the work. Let me 
explain it to you. If you give me a task that takes 45 minutes 
to complete and I go out there and in my mind I complete that 
task in 5 minutes, I went out there and I inspected what you 
asked me to look at, then what you are doing is you are setting 
me up to fail. So now if I go back and I do not finish those 30 
inspections that you know I have no way of completing, I'm 
disciplined for not finishing my inspections. So what these 
guys are doing is they're doing their inspections to a 
standard----
    Mr. Meadows. And falsifying the records. Mr. Jackson, let 
me just tell you, you'll find I'll be your biggest ally, but if 
they're falsifying the records, they need to be fired, pure and 
simple. I mean, is there anybody that falsified records that 
should have been fired?
    Mr. Jackson. Is there anyone that falsified records that 
should have been fired? Yes, there has been.
    Mr. Meadows. So you're going to recommend that to Mr. 
Wiedefeld.
    Mr. Jackson. I'm never going to recommend it. I'm going 
to----
    Mr. Meadows. But you'll go along with his recommendation on 
firing them.
    Mr. Jackson. I'm going to recommend that we look into the 
situation.
    Mr. Meadows. That's not what I asked, Mr. Jackson. You're 
starting to get contagious. It's starting to come over here. 
You're answering a question I didn't ask.
    Mr. Jackson. Okay. Well, I'm never going to recommend 
firing our employees.
    Mr. Meadows. Will you support the termination of someone 
who's falsified records that may have caused the injury of 
someone else?
    Mr. Jackson. If it was their intent to falsify the 
document, yes, I will.
    Mr. Meadows. All right. Thank you, Mr. Jackson. I'm going 
to recognize the gentlewoman from Virginia, Mrs. Comstock.
    Mrs. Comstock. Thank you, Mr. Chairman.
    I want to reiterate some of the points that my colleague 
from Virginia made about the board statements this week really 
not only being troubling but irresponsible. And they were 
called political theatre by our Governor in Virginia, and I 
would agree with that also.
    But I think this week demonstrates really why we need to 
have major changes at Metro, much like what the Federal City 
Council is recommending. We need to blow up the compact and 
change it quite considerably, make big changes here. We need to 
get rid of the binding arbitration, which is not allowing Mr. 
Wiedefeld currently to be able to make the changes he needs and 
put the people on task in the way to get the job done, and then 
we need to change the board.
    Mr. Delaney and I have a bill that we have on changing the 
board, but we need to make these decisions so we don't have 
this type of political theatre. So I hope in the new year with 
our new Transportation Secretary, who not only has a lot of 
experience in transportation but in the Labor Department, that 
we look at all these issues and right-side Metro so we can have 
this partnership that we agree on and support. So I think those 
were very destructive things that were done, and I was not only 
very disappointed but it only reiterated the need to make some 
major changes here.
    And on the same front with the union, I'd like to ask Mr. 
Jackson, is there a Mr. David Stephen that you're aware of? Is 
he here today with you?
    Mr. Jackson. Yes, he is.
    Mrs. Comstock. Okay, is he here? Could you point him out to 
us?
    Mr. Jackson. Mr. Stephen?
    Mrs. Comstock. Yes.
    Mr. Jackson. Mr. Stephen?
    Mrs. Comstock. Okay. Well, Mr. Stephen is somebody in the 
same line of Mr. Connolly being concerned about the attack on 
Virginia. He tweeted out recently--and I think he's been 
tweeting today's hearing and making some slights against 
Chairman Mica--Barbara Comstock is our enemy.
    Do you believe that, Mr. Jackson?
    Mr. Jackson. Ms. Comstock, I believe that we just have a 
difference of opinion on how this transit system and our 
binding arbitration should be handled.
    Mrs. Comstock. Well, let me tell you we have worked, last 
year we've worked together on Metro. We got the money restored 
that some on my own side tried to take out. I worked to do 
that. I have been working with my colleagues in the region. I 
serve on the Transportation Committee. When you have that type 
of mentality--we've been working with Mr. Wiedefeld. Their 
staff has been very cooperative.
    And it would be helpful--Mr. Meadows just pointed out on 
reasons to fire people, and I think Mr. Connolly pointed out 
too. Here's a headline: ``Metro union sues to get fired worker 
back on the job after the deadly smoke incident.'' This was 
another incident where falsified reports happened.
    So you're still pursuing keeping that employee who 
falsified records, you want to keep him employed.
    Mr. Jackson. So, Mrs. Comstock, what you have to understand 
is that we have what's known as binding arbitration. And the 
arbitrator decided that this employee should keep his position 
at the authority. And I believe that even in his findings there 
was some--there may have been some statements along the lines 
of it's the culture, the culture at this company.
    Mrs. Comstock. Okay. And on the culture--and I actually 
think this would be something helpful for all us to do on a 
bipartisan basis--I would like to go out with your track 
workers, come out with you and see what the process is, because 
I don't understand. It seems like nobody has any records of 
this. People say there aren't records. You're making 
accusations that people are asking you to falsify it.
    Is anyone familiar with iPads and phones? Do you have these 
things. Do you have one?
    Mr. Jackson. We also have a cell phone policy.
    Mrs. Comstock. Do you all have them? I understand that 
there's very easy technology where people can come out and 
record this and record what's going on there. And if you record 
that, there's timestamps on it. There's technology that other 
transit services use. They've come in and showed us this.
    I think that would protect you and your workers, because it 
would show that you are on site on a particular time doing 
something, and if somebody said you didn't you'd have that 
proof in your hands in that report that could never go away. 
And if we could have the track system recorded--and I don't 
know what FTA is doing. Are you using any type of physical 
report instead of paper reports?
    Mr. Welbes. Yes. We have been recording all of our 
investigations and inspections.
    Mrs. Comstock. We need to have that, so when Mr. Jackson 
makes reports saying they went out to do something and they 
were told to falsify it, this shouldn't be a back-and-forth of 
finger-pointing. We should have evidence that shows what 
happened when you went out. We have the technology. This is 
2016. This isn't hard. I mean, can somebody--I mean, do you use 
that at all, Mr. Jackson?
    Mr. Jackson. We're not allowed to do that.
    Mrs. Comstock. You're not allowed. Why not?
    Mr. Jackson. Well, because the Authority has a cell phone 
policy, an electronic device policy in which----
    Mrs. Comstock. No, I'm talking about having some type of 
technological thing that records what you're doing, not your 
particular phone but technology that would allow you to record 
that.
    Mr. Jackson. We are not allowed to have any type of 
electronic device in our work zones.
    Mrs. Comstock. Well, I understand we don't want you on the 
phone. I agree with that.
    Mr. Jackson. Well, any kind of electronic device, meaning 
any type of electronics would be needed to record something. 
And through binding arbitration----
    Mrs. Comstock. Because I'm talking about recording your 
work, recording the work.
    Mr. Jackson. Recording the work. Again, the workers are not 
allowed to have any type of electronic device which would even 
record our work.
    Mrs. Comstock. Okay. Well, Mr. Wiedefeld, I think we talked 
about this at the last hearing, because we had people come in 
with that technology to do that. Is that being looked at?
    Mr. Wiedefeld. It is, not only for individuals out there 
but just doing it through--by driving over the system and 
basically recording electronically----
    Mrs. Comstock. Exactly.
    Mr. Wiedefeld. --the conditions of the system. So we're 
pursuing that right now.
    Mrs. Comstock. Okay. Because we should be--now, if he's 
made accusations about this, we should be able to factually 
pull that up and check. I mean, we're long past having to have 
this type of finger-pointing when we have the technology.
    I'd also like to take----
    Mr. Meadows. Ms. Comstock, your time has expired. We'll 
keep it for a second round. We've got a few other folks that 
we've got to go to, but if you'll stay here we'll come for a 
second round. All right?
    The gentleman from Maryland, Mr. Delaney, is recognized.
    Mr. Delaney. Thank you, Mr. Chairman.
    You know, they say companies go bankrupt two ways: Slowly 
and then all at once. And it seems like the same thing has 
happened to Metro. Across time through your really decades of 
bad decisions, we've gotten to the point that everything has 
collapsed upon itself. The difference is, with a company, if it 
has a reason to exist, it goes through a restructuring. It 
brings in new governance, new management, and it gets new 
capital, right, and it begins the path of a turnaround.
    The problem we have here with Metro is there's no obvious 
forcing function to allow that to occur, because it's not a 
company, it's a multi-jurisdictional enterprise. The 
jurisdictions will continue to fund it at low levels. It will 
limp along. It won't be able to do the restructurings it needs 
to do, and it can't change the governance structure.
    But ultimately, right, cutting through all the stuff we've 
discussed here today, that's where this has to go. We have to 
get to a point where there's--actually not a change in 
management. I think the general manager is actually doing a 
good job. That part of the turnaround is occurring.
    But where governance has to change--no disrespect to the 
current chairman, but the Metro board governance model has 
failed. Where we need new governance, the gentlelady from 
Virginia and I have a proposal to do that, as she mentioned. We 
need to restructure contracts that don't work. We need a new 
strategic plan, and we need new money from all the 
stakeholders, and that has to occur in some kind of forcing 
function where it all kind of is brought to the table, and then 
Metro can--because it clearly has a reason to exist. If any 
enterprise has a reason to exist, it's the Washington Metro. 
And then the turnaround can continue.
    So my question to the chairman and to the general manager 
is, what can we do to accelerate the occurrence of that day? 
Because that day, which I define as the day when the governance 
model changes, we're in a position to restructure, and only 
with those things occur will the stakeholders put more money 
in, and they have to put more money in. What can get us to that 
day as soon as possible? Because that's what's in the best 
interest of Metro and all the various stakeholders, including 
the constituencies.
    Mr. Evans. Thank you, Congressman Delaney and Congresswoman 
Comstock. I happen to agree with both of you. And if you 
remember, the original suggestion of getting rid of this board 
and having a five-member board was mine. It drew a lot of 
fanfare back in the day, but now the Federal City Council has 
adopted that model. What their suggestion is is that the 
Federal Government, Congress withdraw its support of the Metro 
compact. If they were to do that, the compact then collapses 
and all the jurisdictions are out and you have to start over 
again.
    My suggestion is, a 16-member board from all the 
jurisdictions is not workable. I'm doing the best I can with 
what I have. We've heard the comments here today. All of us, 
including myself, end up being parochial, because we do. A 
five-person board like the D.C. Control Board of local people, 
but here's the catch: It's not the number, although five 
persons is the best number, with extraordinary powers like 
you're talking about. The D.C. Control Board had the power to 
access money from the Treasury.
    Mr. Delaney. Mr. Chairman, I've seen those proposals, and 
whether it's that or similar flavors.
    Mr. Evans. Yes, yes, yes.
    Mr. Delaney. They all involve change of governance, 
restructuring, and more resources. What can get us to--because 
now we have those proposals floating around out there.
    Mr. Evans. Yes.
    Mr. Delaney. And it's one of these situations, to my mind, 
any of them are better than what we have now. What can get us 
to that day? Because, again, it's not an enterprise that one 
day it runs out of money and files for bankruptcy. That may be 
the biggest problem with Metro is that it doesn't have that 
forcing----
    Mr. Evans. Right, right.
    Mr. Delaney. What can get us to that day?
    Mr. Evans. Again, the Federal City Council has that legal 
outline if Congress withdraws its support from the compact. 
That will be the triggering mechanism that the compact then 
collapses, and everyone is forced at that point to get back 
together again and restructure the system. And the structure 
from 40 years ago just doesn't work. Just like the dedicated 
funding source, that has to be a part of it.
    The other five major systems all have a 1 percent sales 
tax. We don't have it. So all of that has to be, a new board, a 
new tax, all of that, and you can make the system work.
    Mr. Delaney. Does the general manager have an opinion on is 
this?
    Thank you, Chairman.
    Mr. Wiedefeld. It is around the compact. I mean, that is I 
think the mechanism to attack this.
    Mr. Delaney. Okay. I yield back.
    Mr. Meadows. I thank the gentleman? The chair----
    Mr. Connolly. Would my friends just yield for one 
observation?
    Mr. Delaney. Of course.
    Mr. Connolly. While he still has time.
    It's complicated. It's also complicated by the--I find it 
ironic that the District of Columbia that talks about taxation 
without representation, which I support, would nonetheless 
favor a system at Metro that would take away representation 
from the people who pay the taxes. In Virginia, it's 
localities, not the State, that pays the operating subsidy. And 
you are going to find fierce resistance to those taxpayers to 
lose their representation.
    Mr. Delaney. I'm reclaiming my time briefly.
    Mr. Connolly. You don't have any more time, I took it. I'm 
just teasing.
    Mr. Delaney. I'm not proposing any specific governance 
model, new governance model. Restructuring, more resources, 50 
different ways of doing that. That's where we have to get to.
    Mr. Meadows. I thank the gentleman.
    The chair recognizes the gentleman from Wisconsin, Mr. 
Grothman.
    Mr. Grothman. We'll go a little different place than we've 
been so far. Just a couple months ago, on September 13, there 
was a train that apparently came to a stop outside the Farragut 
North station. Apparently, for a while there was no 
communication between the operator of that train and the ROCC.
    Mr. Wiedefeld, could you comment on that? Apparently even 
prior to that time there was concern they couldn't contact the 
operators. So not only did the train stop, but there was no 
contact between the operator of that train and the central 
location. Could you tell us a little bit what happened there 
and whether you think it's appropriate that it happened?
    Mr. Wiedefeld. Sure. One of the issueS we have is, once an 
operator leaves the cab, in effect, there is no communication 
with the remaining six or eight cars and that walkie-talkie. So 
there were some issues around that. And so that is, again, a 
personnel issue that we're dealing with; did they follow all 
the rules they were supposed to follow at that time.
    But the reality is, when an incident occurs in a tunnel and 
if there's only one WMATA employee on it, once they leave that 
cab, in effect, you've lost the ability to communicate. You're 
walking through a very crowded train, depending what the 
conditions are, and you are either talking--we do have 
megaphones, for instance, in the cab that they're to take to 
try to help with that communication. But what we have to do is 
figure out a way to get the ROCC to be able to talk to the 
train where the operator is no longer in the cab.
    Mr. Grothman. As I understand it, there was no 
communication between control center and the operator of that 
train. Is that accurate?
    Mr. Wiedefeld. There was some, but it was not done 
according to the policy that they should have been following.
    Mr. Grothman. Okay. There were concerns even before that 
that central felt they weren't getting a hold of the operator. 
Is that right?
    Mr. Wiedefeld. That's right.
    Mr. Grothman. Okay. But unless we charge ahead--now, you're 
telling me what happened, the reason there was no communication 
between the operator of the train and the passengers is the 
operator got up and began walking through the train? Is that--
--
    Mr. Wiedefeld. Yes. That's exactly what they had to do. And 
that's what they should have been doing. That's exactly what 
they should have been doing.
    Mr. Grothman. Okay. In other words, were they unable to 
communicate with the passengers otherwise?
    Mr. Wiedefeld. You can communicate with the passengers when 
you're in a cab, but as you do know, we have problems on that 
issue as well, because if we use different series of cars, when 
we put them together, the communications don't work. So that's 
a technical issue that we're addressing with the 7000 series. 
But once they leave the cab, in effect, all they have now is 
their walkie-talkie and a megaphone.
    Mr. Grothman. And apparently, because of the lack of 
communication, some passengers got tired of waiting and began 
walking down the track?
    Mr. Wiedefeld. Yes. There was definitely frustration, you 
know, and I think just given the current--some of the current 
conditions, I think that's what occurred. We obviously do never 
recommend anyone leaving the car. That would be like, you know, 
if you're frustrated sitting on the tarmac on a plane, you 
know, sliding down the--taking the slide down, that's just not 
acceptable.
    Mr. Grothman. Okay. Kind of a scary thing. Were you aware 
that--was any employee of Metro aware that these passengers 
were walking alone down the tracks?
    Mr. Wiedefeld. Yes. And that's exactly--they were just 
outside the station. Other employees were there and were 
walking to the car, and that's when they saw these individuals 
leaving the car.
    Mr. Grothman. Was the third rail still on at the time?
    Mr. Wiedefeld. Yes, it was.
    Mr. Grothman. Shouldn't somebody have been hitting the 
panic button, say we better turn this thing off?
    Mr. Wiedefeld. Basically, that's what--they grabbed these 
people immediately and put them up on the walkway to get them 
away from that. And that's what caused a lot of the delay, 
because then we had to go, in effect, and inspect around the 
cars, make sure no one else was out there.
    Mr. Grothman. Unbelievable, but just like everything else 
here in Washington, why would it work.
    But I'll give you another question. You guys always say the 
problem is lack of money, and I know that in any big 
organization today one of the problems we have is health 
insurance costs. What type of health insurance plan do we have 
for the employees of the Metro and what's the cost per employee 
per year?
    Mr. Wiedefeld. I can get you the details, but the--there's 
two levels of health care. One is for the nonrepresented 
employees, which is about 2,000 people. And the other is tied 
to the represented employees, which is about 11,000 people. 
Eleven thousand people is through negotiated settlement in--
again, through the whole binding arbitration process. The 
other, we have more control over it. Just recently, we've 
reduced the cost of that system by basically charging our 
employees more for the nonreps. But I'll have to give you 
details----
    Mr. Grothman. Okay. How many nonrepresented employees do 
you have----
    Mr. Wiedefeld. Two thousand.
    Mr. Grothman. Two thousand. So you've got a total of 13,000 
people. What is your cost per employee?
    Mr. Wiedefeld. I just don't have that number. I can get it 
to the committee.
    Mr. Grothman. Do you know about? Eighteen thousand a year? 
Seventeen? Twenty-five?
    Mr. Wiedefeld. I don't know. I just don't know.
    Mr. Grothman. Would anybody here know?
    Mrs. Comstock. Yeah. If the gentleman would yield, I 
actually have some of those numbers. If you'd like, I could ask 
about them, because I have some.
    Mr. Grothman. Sure.
    Mrs. Comstock. And I know 75 percent of the cost--70, 75 
percent of the cost of Metro is wages and benefits, is my 
understanding. The information you had given us was that the 
average salary, for example, for controllers, was, over the 
past few years, between $77,000 to $87,000. And I believe the 
starting base salary was 71. Because it would--overtime, and as 
much overtime--like there was one controller who made $216,000 
because of overtime. In one year, $216,000. This is the 
information that Metro gave us.
    So there's a policy where the people, and my understanding 
is, when there's overtime, the people who have the most 
seniority--and this, again, is in the contract. So the highest 
salaried employees who maybe are about to retire get the first 
dibs on the overtime. So they're able, in your last 3 to 5 
years, run up your salary so you get a $216,000 salary, and 
then that overtime is tied to your pension. Is that correct?
    Mr. Wiedefeld. Yes.
    Mr. Meadows. [Presiding.] The gentleman's time has expired. 
You can maybe reclaim for one quick question.
    Mr. Grothman. Right, right, right. The question I had, and 
I don't know whether any of you people know it, it's not a 
matter of giving the employees more of the cost of their health 
insurance, although that's sometimes necessary. The cost is 
what type of plan do you have? Is it market based or that sort 
of thing? I would hope that one of you up there, one of the 
four of you, would be able to just tell us what is the overall 
cost per employee, both the employee share and the employer's 
share of insurance? I mean, if you don't remember last year's, 
maybe you remember a year before that. Is it 18? Is it 25? Is 
it 22? What is it? What do you guys--any one of the five of you 
can tell me.
    Mr. Meadows. Mr. Wiedefeld, can you get----
    Mr. Wiedefeld. I can get that to the committee. Yes, I can.
    Mr. Grothman. It's just amazingly incompetent for none of 
you to have any clue what that is. But it just shows--whatever. 
I'm done with my time.
    Mr. Meadows. Mr. Wiedefeld, I thank you for being willing 
to get that back to the committee. If you'll get that response.
    The chair recognizes Mrs. Watson Coleman for 5 minutes.
    Mrs. Watson Coleman. Thank you very much.
    That was a little concerning to me, that a person with a 
base salary of 77 to $80,000 a year could have overtime as an 
operator to the tune of----
    Mrs. Comstock. A controller.
    Mrs. Watson Coleman. --some $200,000 a year. I mean, when 
does that person sleep? That's a little scary to me.
    Mr. Wiedefeld, I'm just going to ask you a couple of 
questions because I'd really like to know what you think you 
need. Do you know what you need in order to make this system 
operate efficiently and effectively and encourage people to use 
it, because I think public transportation is vitally important 
to our environment as well as just to our lifestyles. So do you 
have a comprehensive plan that lays out all of the things that 
you need to do with your cars, your tracks, your electrical, 
your whatever?
    Mr. Wiedefeld. We do, in fact, on all those levels. Both on 
the track and on the cars is our biggest focus for this one 
year, but we have it for our busses. We have it for our 
paratransit service. A big part of it is working closer, I 
believe, with the union employees and getting to some of those 
core issues. I agree with that as well.
    Mrs. Watson Coleman. So there is a plan that goes for, 
what, five years, ten years?
    Mr. Wiedefeld. Yeah, we have an overall plan. But I'm 
focusing particularly on the '17--you know, remainder of this 
year and '17 to get at some of the core issues that we have to 
address immediately.
    Mrs. Watson Coleman. Okay. But to get the system in good 
repair, you have a longer term plan. Right?
    Mr. Wiedefeld. We do. Yes, we do.
    Mrs. Watson Coleman. So do you anticipate a certain amount 
of money that you need in order to accomplish this, both long 
term and then incrementally to get to that long term?
    Mr. Wiedefeld. Yes. We have a program for the next 6 years 
for both operating and capital of what we would recommend.
    Mrs. Watson Coleman. And do you have what you need? Or is 
there a running deficit----
    Mr. Wiedefeld. No. We have a deficit on the operating 
budget in the upcoming year of $290 million. Obviously, we have 
to have a balanced budget, so I proposed a certain way to get 
there that the board is considering right now. On the capital 
side, like any other major infrastructure, the capital needs 
are always much larger than what we have available. We've 
identified a total need of $25 billion. But that is--you know, 
we have a capital program that we're proposing of $7.2 billion 
over the next 6 years to chip away at those issues.
    Mrs. Watson Coleman. So that if you have a--7 times 6 is 
what? 56? You have a $7 billion plan per year----
    Mr. Wiedefeld. Every 6 years.
    Mrs. Watson Coleman. --for 6 years?
    Mr. Wiedefeld. For 6 years. Over 6 years. It's roughly 
about 1.2, 1.3 annually.
    Mrs. Watson Coleman. Okay. So what do you--what's going to 
be your deficit there?
    Mr. Wiedefeld. We're going to have a deficit on the 
operating side of the equation.
    Mrs. Watson Coleman. Not on the----
    Mr. Wiedefeld. Well, the capital side is--again, you always 
have more capital needs than you can afford.
    Mrs. Watson Coleman. Yeah. But we're really focusing on the 
fact that your infrastructure hasn't held up the way it should 
and there, therefore, have been serious injuries and loss of 
life and things of that nature. So that's where I'm trying to 
focus right now on----
    Mr. Wiedefeld. Right. Right. And we believe, for the 
upcoming year, that we have enough dollars to, again, move in 
that direction to bring the entire system to what we call a 
state of good repair, to get it to a base level. Not expansion, 
but basically gives you that base level.
    Mrs. Watson Coleman. Okay. All right. I don't think I 
really know the answer to my question. But I'm going to yield 
my time to my very eager colleague here.
    Mr. Connolly. I thank my friend.
    Mr. Wiedefeld, Mr. Evans talked about utilization and cost 
and loss on a certain line in the system. Do you maintain an 
actual cost, loss, or revenue gain for each station or each 
line of the system?
    Mr. Wiedefeld. No. What we do is, you know, we manage this 
as a regional system. And that's the way we look at it.
    Mr. Connolly. Well, how is he able to desegregate the 
Silver Line from everything else and declare that it's going to 
cost something projected into the future?
    Mr. Wiedefeld. I don't know what numbers that were thrown 
around.
    Mr. Connolly. Well, let me just ask this: If we're going to 
go down that road, this committee, with the permission of the 
subcommittee chairman, wants to see data on every line and 
every station. And if we're going to start talking about 
closing things based on gain or loss, we're all ears. We're all 
eyes. And we'll be participants in that, I assure you. So we 
want to see that data. Since it got brought up, why pick on 
only just one part of the system.
    Secondly, Mr. Evans, you were talking interestingly on the 
board about the affluence of certain members of the compact, 
certain parts of the compact. In fact, you made reference to 
jurisdictions I represent in terms of their median household 
income. Was that a predicate to maybe changing how we finance 
the operating subsidy based on median household income and an 
ability to pay rather than utilization or physical presence of 
Metro in a jurisdiction?
    Mr. Evans. Mr. Connolly, all of my comments are directed at 
getting the attention of Maryland and Virginia that we need a 
dedicated funding source.
    Mr. Connolly. But why would you pick on the measure on 
median household income and affluence? What was the relevance 
of that?
    Mr. Evans. What I was saying is Fairfax County is the 
second richest county in America and Arlington's the sixth 
richest county in America, and yet we cannot get a dedicated 
funding source for Metro.
    Mr. Connolly. Yeah. And this goes back to why I think your 
comments about the Silver Line are reckless. So let's take 
Fairfax County, which I've represented for a long time. It's 
400 square miles. How big is your jurisdiction?
    Mr. Evans. 62.
    Mr. Connolly. How many stations you got?
    Mr. Evans. How many?
    Mr. Connolly. Stations. Metro stations.
    Mr. Evans. 40.
    Mr. Connolly. Forty in 62 square miles. If you take out the 
Silver Line, Fairfax has four, and if you're generous with 
Falls Church, five in 400 square miles, Mr. Evans. It's a very 
difficult task persuading our taxpayers to increase their 
subsidy, let alone vote for a dedicated source of revenue, if 
they're not served by Metro. And that was the genius of the 
Silver Line, to finally get service to the Nation's premier 
international airport, which is a Federal responsibility we're 
bearing. And, secondly, to anchor the largest jurisdiction and 
the wealthiest jurisdiction as a stakeholder in Metro. I urge 
you to contemplate that next time you decide to opine about the 
relevance of Metro in my jurisdiction. Thank you.
    Mr. Meadows. The chair recognizes the gentleman from 
Virginia, Mr. Beyer, for 5 minutes.
    Mr. Beyer. Thank you, Mr. Chairman.
    Mr. Wiedefeld, first of all, I want to thank you again 
for--as we--many have done today, for making the hard 
decisions. You know, John Kennedy said that to govern is to 
choose. And you clearly have made these choices.
    You weren't able to address in your spoken testimony, but 
in your extended written testimony you talked about the speed 
restrictions outside National Airport. And many of my 
constituents who regularly use the Yellow and the Blue Lines 
question why the speed restrictions are in place so soon after 
the SafeTrack work has been completed. Can you explain when 
those will go away or why they're still there?
    Mr. Wiedefeld. Sure. Sure. The speed restriction had 
nothing to do with the condition of the track. It had to do 
with a near miss out there. We have certain parts of the system 
where we have very tight curves. And that one happens--actually 
is an ess curve. And that--so we wanted to reduce the speed. 
There was actually a line of sight issue. We worked with the 
National Park Service to remove a tree to do that so we could 
start to bring that speed back up.
    And then what we're doing is we're instituting a electronic 
technology so that when workers are out in one of those blind 
curves, in effect, they are alerted that a train is coming. And 
more importantly, that the operator knows that someone's in 
front of them. And then once we have that in place, then we can 
bring speeds back up. But when someone's out there, we just 
want to make sure that they're not in danger.
    Mr. Beyer. Okay. Thank you. You know, much has been made 
about the culture, state of the culture at WMATA. And this is 
the hardest thing to change and the most important thing. How 
long do you think it's going to take? What are your steps to 
change the culture? And I can ask Mr. Jackson this too. Do you 
see the union as a willing partner in this culture evolution?
    Mr. Jackson. I do see the union as a willing partner with 
this culture evolution. I would just ask to go look at the 
union's statements over the last few years. We've been asking 
for this, I believe, since 2009, or maybe even before then. I 
do know that during the--I can't remember the year and the 
guy's name right now. But he came with Kubicek and the rest of 
them. We have been saying this for a while that the Authority 
have a serious culture problem. We have a very serious culture 
problem and something needs to be done. It can't get done by 
management disciplining their way out of this safety culture 
problem that we have. You can't discipline your way to safety. 
But if we sit down, the union and management come together, I 
believe that we can fix this problem. I mean, and in my 
professional opinion, I don't even believe we need the FTA to 
do it. All we need is the training.
    Mr. Beyer. Let me ask the general manager the same question 
about culture, difficulty, time, and willing partners.
    Mr. Wiedefeld. Yeah. I know we have willing partners. I've 
met with hundreds if not thousands of our employees. And 
basically, they've very proud and they--a lot of the things 
that you're starting to see now is the result of the safety 
culture taking root. So, for instance, about 3 weeks ago or so 
we had an issue with the 4000 series. That was raised by a 
middle manager person that basically said: Wait a minute. 
There's an issue here. And we pulled those cars out of the lead 
on the trains.
    A lot of the other speed restrictions, you mention one, but 
there's a number of speed restrictions that have been occurring 
over the last few months. That's coming from line employees. 
And that's exactly where it should come and that's what we want 
to promote.
    But I do believe with Mr. Jackson, there has been a culture 
here over decades that has evolved. And I'm not going to turn 
it around in months. But I think it's going to--a concerted 
effort by management and labor to do that.
    Mr. Beyer. Great. Thank you.
    Chairman Evans----
    Mr. Evans. Yes.
    Mr. Beyer. --we've given you a hard time today because of 
your comments about warning the Blue Line to be closed for 6 
months or that you cut suburban Metrorail service so Virginia, 
Maryland can contribute more money. In November, you floated 
the idea of a Federal takeover of WMATA. And just last week, 
this notion of not continuing Silver Line phase two, even 
though Virginia's paying to construct it.
    I know you're working very hard and very passionately about 
dedicated sources of revenue and all that. But how do you 
respond to all these statements which seem to deepen the 
parochial divides and perhaps further undermining rider 
confidence in our system?
    Mr. Evans. Thank you, Congressman. Actually, I think--and 
you take those statements one by one. What I found when I came 
to Metro and became chairman is a lack of awareness--because of 
Metro's fault. Nobody's else's fault--in this whole region of 
how bad this situation was. On the operation side, as was 
pointed out by I believe Chairman Mica, we had just celebrated 
Richard Sarles' leaving as one of the great times in Metro. And 
the whole thing was a wreck and nobody knew it. The finances, 
when I walked in there, I couldn't believe what I found. We 
hadn't had a clean audit in 3 years. Everything was in chaos.
    What I've tried to do in the last year is to raise the 
awareness of the region starting out with close the Blue Line 
for 6 months. We needed to do something to fix these lines. 
Paul's SafeTrack program is a followup on just that statement. 
The idea of a control board for Metro. It's been adopted by the 
Federal City Council. So all of these statements which were 
inflammatory at the time actually turned--proved out to be what 
Metro needs. And I have to say, Mr. Congressman, we're not even 
close to fixing this thing. There is a lot that needs to be 
done. But I will say this: We are light years ahead of where we 
were a year ago at this time. Enormous progress has been made.
    Mr. Beyer. All right. Thank you.
    Mr. Chair, I yield back.
    Mr. Meadows. I thank the gentleman.
    The chair recognizes the gentlewoman from New York, Mrs. 
Maloney, for 5 minutes.
    Mrs. Maloney. Well, it's good to hear that some progress 
has been made. But I want to look more closely at the 
capabilities of the Federal Transit Administration and what it 
brings to its role as the entity with responsibility for 
oversight and safety at Metro.
    So I'd like to begin with Mr. Welbes. How many safety 
inspectors does FTA currently have?
    Mr. Welbes. So we have a team of 10 people working on our 
safety inspection. We have 24 people total who are involved in 
WMATA inspections and oversight right now.
    Mrs. Maloney. So 10 people. And 24, what are the 24? Are 
they on detail from other agencies?
    Mr. Welbes. There's a combination of 13 FTA employees. We 
also have some contractor employees. We also have some 
detailees from the Federal Railroad Administration and the 
Federal Motor Carrier Administration.
    Mrs. Maloney. How many detailees do you have?
    Mr. Welbes. I can report that back to you.
    Mrs. Maloney. And do you have any contractors who help 
perform FTA safety inspection responsibilities? And if so, how 
many?
    Mr. Welbes. I will provide that to you for the record.
    Mrs. Maloney. Okay.
    And Chairman Hart, for the purposes of comparison, how many 
rail inspectors does the Federal Railroad Administration have?
    Mr. Hart. I'm sorry, I do not have that number. I have to 
get back to you with that.
    Mrs. Maloney. Okay. Great.
    And, Mr. Welbes, when FTA conducts its oversight duties, 
does it have Federal regulations to refer to or does it 
regulate Metro based on the standards that Metro has 
established for itself?
    Mr. Welbes. So at this time, we enforce Metro standards. We 
hold Metro accountable to carry out its standards.
    Mrs. Maloney. Its standards. Okay. And is FTA working on a 
rulemaking regarding Federal standards for transit operation?
    Mr. Welbes. Yes, we are.
    Mrs. Maloney. That's good to hear. And what is the status 
of that rulemaking?
    Mr. Welbes. So in this past year, we've issued four safety 
regulations: One related to State safety oversight; one related 
to bus testing; another one that is our national safety 
program, which is the overall framework for FTA carrying out 
the new authority that Congress gave it recently. And then in 
the coming months on--we have two more regulations we are 
issuing. One is the Public Transportation Agency safety 
regulation and a safety certification training regulation 
that's also ready for issuance.
    Mrs. Maloney. And, Chairman Hart, for the purposes of 
comparison about FRA, does it hold the railroads it regulates 
to established Federal rules or to the standards that the 
railroads establish for themselves?
    Mr. Hart. Well, let me--there's a clarification I think 
that's warranted here. Our understanding is that what the 
Federal Transit Administration is putting out is not 
regulations but voluntary safety standards. The FRA puts out 
regulations, which means you must do this or you cannot do 
that. So I think there is a large distinction there between the 
two activities. And I'm not sure that under the circumstances 
where FTA is intending to be a temporary body, I'm not sure 
under those circumstances they would be eager to create an 
entire infrastructure with regulations and inspections--
inspectors to find out if the regulations are being followed. 
They're trying to see the States take this function over sooner 
rather than later. So I'm not confident that they would ever 
want to create that infrastructure that we think is necessary 
that the FRA already has.
    Mrs. Maloney. Do you agree with that analysis, Mr. Welbes? 
Just voluntary, not a real regulation?
    Mr. Welbes. In the future, our intent is that there will be 
certain mandatory standards. There will be also voluntary 
industry standards that agencies will follow. It'll be a 
combination.
    Mrs. Maloney. Well, certainly with Homeland Security, do 
you have standards in Homeland Security that are Federal?
    Mr. Welbes. Yes.
    Mrs. Maloney. You do.
    I want to look at FTA's day-to-day oversight of Metro. Mr. 
Welbes, how many FTA inspectors are assigned to oversee safety 
at Metro?
    Mr. Welbes. So we have, as I noted, a team of 24 people 
total in our Washington Metro safety office which we 
established a year ago.
    Mrs. Maloney. Okay. And do FTA inspectors produce regular 
reports on their findings at Metro for review by senior 
officials? And how often are these reports produced? Who 
reviews them? And has FTA ordered any specific changes in 
Metro's operations to respond to findings that have been 
identified by these inspectors?
    Mr. Welbes. We have. We've done two things. We've done 
targeted investigations of key problem areas. For example, red 
signal overruns, track maintenance. And then we also have 
conducted day-to-day inspections. So we've conducted over 300 
daily inspections. And they've resulted, as Mr. Wiedefeld will 
know, in--I believe on the investigation side, 251 specific 
corrective actions that WMATA's supposed to carry out. And of 
those, some of them are ones we brought forward that had been 
assigned by the State safety oversight agency. About half of 
them are ones we've identified during the past year.
    Mrs. Maloney. My time has expired.
    Mr. Meadows. I thank the gentlewoman.
    The chair recognizes the gentlewoman from Virginia for a 
very quick 1-1/2 minutes since they've called votes.
    Mrs. Comstock. Okay. How many people--actually, I wanted--
the information you provided with us earlier is that there are 
5--about 5,000 employees in the transit infrastructure and 
engineering services that ties department of Metro. And my 
understanding is that--that comparable transit networks have 
about 19 of those employees per track mile and Metro has 42, 
according to those statistics. Would that be correct?
    Mr. Wiedefeld. I don't know. I would have to look at that. 
I just don't know.
    Mrs. Comstock. Okay. Could we get that information? Because 
I think what we really need to have and what we haven't been 
able to get is how do we--I know you've said we're doing--it's 
costing more and we're doing less. And we need to get 
comparable data. And I know Mr. Evans has said to me in private 
meetings that the contract is unsustainable, and having 
$100,000 bus drivers or $216,000 controllers are a very 
difficult thing. I'm sure your teachers in D.C. don't make 
$216,000. My husband is a teacher--was a teacher in Fairfax 
County. I can assure you, did not make that. Does not make 
$100,000, our teachers don't in Fairfax. So this wealthy county 
that has been referenced, their teachers, their firefighters, 
their police are not making $216,000 or $100,000. And these are 
people who often have graduate degrees and others. So I'd like 
to get that comparable data, and we need to have that.
    But I'd also like to--given Mr. Jackson's comments today 
saying that people are forcing them to falsify things, those 
are very serious charges. And I think we need names and 
information on that. And you very factually stated that. So I 
would hope you would present us with facts that back that up. 
You are here under oath today. And I think it's incumbent if 
you have employees--because, you know, if your employees are 
being exploited like this, we need to have that information. So 
I would ask you to provide us names and places and incidents, 
and go back to your employees and give us that information.
    And then I'd like to make my request again, and I hope you 
would be able to take us sort of on a tour, so we understand 
when your employees are called to do these--whether it's 42 per 
mile and what--and I should also point out that these are 
people who--from the APTA data that we have, compared to what 
Metro is paid, your workers are paid considerably higher--you 
are aware of that, Mr. Jackson, right--than the average?
    Mr. Jackson. I know that what our workers make were--their 
salaries were negotiated with WMATA.
    Mrs. Comstock. I understand they were negotiated. But, for 
example, the track workers who with their benefits make $55 an 
hour is comparable to the average of $30 an hour. The wage an 
hour rate is $36, then benefits are $17. The Davis-Bacon track 
laborer makes $23 and then $7 with fringe benefits for $30. So 
your employees are paid more--considerably higher than Davis-
Bacon and higher than the national average. Would you agree?
    Mr. Jackson. Well, I will agree that our employees also 
have to go behind those same contractors and redo the work that 
they have done.
    Mrs. Comstock. Well, so you're saying even though you have 
42 miles--workers per track and as opposed to 19, you still 
aren't able to--and you're paid more. So my--I mean, from--I'm 
looking at the data that Metro gave me. These employees are 
paid more and there's more of them than the average. And yet 
you're not acknowledging that?
    Mr. Jackson. Well, are you asking for the quality of the 
work?
    Mrs. Comstock. No. I'm asking for the salaries. So maybe if 
you could provide me, your union, with that--I mean, I know 
your union's under investigation right now by the Labor 
Department. Is that correct?
    Mr. Jackson. We are not under investigation by the Labor 
Department.
    Mrs. Comstock. Well, they've sued about the--the election 
wasn't properly held. Is that correct?
    Mr. Jackson. Yes.
    Mrs. Comstock. But do you have somebody who could provide 
us with the information on the salaries and all that that--
because you've made claims that you're paid, I think publicly 
outside of this hearing, that you aren't paid more than the 
average and that there's some--and you're asking for 
considerable salary increases, is that correct, in your current 
negotiations?
    Mr. Jackson. We're in contract negotiations now. And that's 
what they are. They are negotiations.
    Mrs. Comstock. Okay. So for this 55--$53 an hour, you're 
asking for more.
    Mr. Jackson. We're asking for more. The Authority is also 
asking for more. So that's why it's called negotiations. We 
will negotiate with the Authority, and we will come up with 
something that I believe will be fair for everybody.
    Mrs. Comstock. Okay. Well, I think again I would reiterate, 
that's why the Federal City Council has pointed out this is 
unsustainable given the costs that are not comparable to the 
national rates and why we need to get rid of this existing 
compact and the binding arbitration that makes it impossible 
for the leadership here to really implement what you're asking 
them to implement.
    I thank the Chairman.
    Mr. Mica. [Presiding.] I thank the gentlelady. I thank our 
witnesses. We do have an opportunity to make Metro great again. 
I think this panel is in very good hands. Some of you may wish 
one of these days that Congressman Mica was back chairing these 
hearings.
    There being no further business before the committee and 
the dual subcommittees, Government Operations and 
Transportation Oversight, this hearing is adjourned.
    [Whereupon, at 11:28 a.m., the subcommittee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record
               
               
               
               
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
              
               
               
                             [all]
                             
                             
                             
                             
                             
</pre></body></html>
